<html>
<title> - H.R. 4855, WORK-LIFE BALANCE AWARD ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                 H.R. 4855, WORK-LIFE BALANCE AWARD ACT 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 22, 2010

                               __________

                           Serial No. 111-57

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-441 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Carol Shea-Porter, New Hampshire     Cathy McMorris Rodgers, 
Donald M. Payne, New Jersey              Washington,
Raul M. Grijalva, Arizona              Ranking Minority Member
Timothy H. Bishop, New York          Peter Hoekstra, Michigan
Phil Hare, Illinois                  Joe Wilson, South Carolina
Gregorio Kilili Camacho Sablan,      Tom Price, Georgia
  Northern Mariana Islands





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 22, 2010...................................     1

Statement of Members:
    McMorris Rodgers, Hon. Cathy, Ranking Minority Member, 
      Subcommittee on Workforce Protections......................    25
        Prepared statement of....................................    27
    Wilson, Hon. Joe, a Representative in Congress from the State 
      of South Carolina..........................................     4
        Prepared statement of....................................     5
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3
        Submissions for the record:
            Galinsky, Ellen, president, Families and Work 
              Institute, prepared statement of...................    33
            Christensen, Kathleen E., Alfred P. Sloan Foundation, 
              prepared statement of..............................    36
            WorldatWork resources, selected bibliography.........    36

Statement of Witnesses:
    Evans, Carol, president, Working Mother Media................     6
        Prepared statement of....................................     8
    Gorman, China Miner, chief global member engagement officer, 
      Society for Human Resource Management......................    15
        Prepared statement of....................................    17
    Lipnic, Hon. Victoria A., Commissioner, U.S. Equal Employment 
      Opportunity Commission.....................................     9
        Prepared statement of....................................    11
    Wu, Portia, vice president, National Partnership for Women 
      and Families...............................................    20
        Prepared statement of....................................    22


                 H.R. 4855, WORK-LIFE BALANCE AWARD ACT

                              ----------                              


                        Thursday, April 22, 2010

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Woolsey, Hare, Sablan, McMorris 
Rodgers, and Wilson.
    Staff present: Andra Belknap, Press Assistant; Jody 
Calemine, General Counsel; Lynn Dondis, Labor Counsel, 
Subcommittee on Workforce Protections; David Hartzler, Systems 
Administrator; Sadie Marshall, Chief Clerk; Alex Nock, Deputy 
Staff Director; Alexandria Ruiz, Staff Assistant; James 
Schroll, Junior Legislative Associate, Labor; Matt Walker, 
Policy Advisor, HELP; Mark Zuckerman, Staff Director; Kirk 
Boyle, Minority General Counsel; Ed Gilroy, Minority Director 
of Workforce Policy; Rob Gregg, Minority Senior Legislative 
Assistant; Alexa Marrero, Minority Communications Director; 
Brian Newell, Minority Press Secretary; Jim Paretti, Minority 
Workforce Policy Counsel; Molly McLaughlin Salmi, Minority 
Deputy Director of Workforce Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairwoman Woolsey [presiding]. A quorum is present. The 
hearing of the Subcommittee on Workforce Protection will come 
to order. And I will begin with my opening statement.
    I have quite a bit to say, so I usually don't take up all 
that much time, but this is--I have a lot to say about what we 
are doing today.
    Today's Subcommittee Workforce Protections hearing on H.R. 
4855, the Work-Life Balance Award Act--is being introduced by 
myself and Chairman Miller. And we are proud of that and to 
have this hearing the same day we are introducing the 
legislation just fits perfectly.
    H.R. 4855 establishes an annual award at the Department of 
Labor for employers--both private and public--with policies 
that contribute to work-life balance.
    Today, if a child is fortunate to have two parents, most of 
them work outside the home and commute long hours, and in a 
single-parent home it is almost certain that this is true. So 
balancing work and family is a very real challenge for millions 
of workers in this country and is extremely important to their 
children.
    Many years ago, when I was a working mom and before my 
children were parents themselves, I worked full-time outside of 
the home. It was a struggle. It was a struggle on many levels, 
but it was particularly a struggle to meet both the needs of my 
family as well as the responsibilities of my job.
    My job was that of a human resources manager, so I was 
absolutely aware that many of my employees were going through 
the very same things that I was. Unfortunately, that was at 
least 30 years ago, and today nearly every parent is under 
these same pressures, and men as well as women are desperate 
for work-life balance.
    One of the main reasons I ran for Congress over 18 years 
ago was to fight for working families. I was a new member when 
we passed the Family and Medical Leave Act, and I knew what an 
important step we were taking, particularly for working women, 
to provide job-protected family and medical leave for certain 
workers, even though it was unpaid.
    Since then we have learned that more than 100 million 
leaves have been taken under FMLA; that nearly 2 in 3 workers 
are not covered by the act; and even if they are, most can't 
take advantage of its provisions because they simply cannot 
afford to take unpaid leave.
    About 8 percent of workers are fortunate to receive paid 
leave through their work, so we have a lot of room for 
improvement. In fact, the U.S. lags far behind the rest of the 
world in providing paid leave and other work-life benefits to 
their employees.
    It is unacceptable that our country, which is the number 
one economy in the world, can barely compete with developing 
nations in this arena. Workers should not have to choose 
between work and family, and that is why I have introduced the 
balancing act, H.R. 3047, which lays out a blueprint for 
balancing work and family.
    This effort to bring balance between home and the workplace 
must be waged on all fronts, and many in the business world are 
leading the way. These companies know that providing work-life 
benefits increases retention, decreases absenteeism, and 
increases productivity.
    And through recognition awards by such entities as Working 
Mother magazine, along with the Alfred P. Sloan Foundation and 
the Families and Work Institute, employers are encouraged to 
assist their employees so that they can bridge the challenges 
of work and family by adopting good work-life balancing 
policies.
    The bill we are examining today provides another incentive 
for employers. I want to thank ranking member Cathy McMorris 
Rodgers, who is not here right now because she had a 
prevailing--a very important meeting, an appointment, but we 
have Joe Wilson in her stead--but Congresswoman McMorris 
Rodgers has been invaluable in assisting in the drafting of 
this bill.
    H.R. 4855, the Work-Life Balance Award, establishes an 
award at the Department of Labor to be presented annually to 
employers of any size that have exemplary work-life policies. 
The bill also sets up an independent board appointed by the 
Secretary of Labor based on recommendations from Congress to 
develop criteria as well as the applications process. The board 
is also charged with providing recommendations to the Secretary 
of qualifying employers.
    The board will consist of representatives from children and 
families' groups, state and local government, business or 
business organizations, and organized labor. We have made a 
great start by introducing this legislation, but I believe that 
when we mark this bill up in the committee, we can further 
improve it by adding the minimal requirements for the advisory 
board to use in establishing its criteria for awardees.
    For example, the bill should identify certain work-life 
practices on which employers would be measured. While I don't 
have an exhaustive list, these policies could include paid sick 
leave to care for one's self or a sick family member and for 
the birth or adoption of a child, time off to attend children's 
extracurricular activities and school conferences, 
telecommuting, job sharing, and on site-child care. Those are 
just examples.
    While the bill requires the board to consider only those 
employers who are in compliance with all labor and employment 
laws, we certainly should consider the whole company as an 
example of a good employer, so an employer with wage and hour 
or OSHA citations may not qualify.
    I would also be very interested in any suggestions and all 
suggestions that our witnesses have. You will be able to help 
us strengthen this legislation so that it becomes absolutely 
meaningful.
    Creating award at the--an award at the U.S. Department of 
Labor is important for the reason that we can send the message 
that the federal government supports and encourages work-life 
balance. This award, however, is not intended to supplant other 
awards but to complement ongoing efforts.
    So again, I thank you for coming. I look forward to hearing 
from our wonderful witnesses. And I yield now to Congressman 
Wilson.
    [The statement of Ms. Woolsey follows:]

        Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman,
                 Subcommittee on Workforce Protections

    Today the Subcommittee on Workforce Protections is holding a 
legislative hearing on ``H.R. 4855, the Work-Life Balance Award Act,'' 
a bill I have introduced with Chairman Miller.
    H.R. 4855 establishes an annual award at the Department of Labor 
for employers--both private and public--with policies that contribute 
to work-life balance.
    Today, if a child is fortunate to have two parents, most of them 
work outside the home and commute long hours.
    And in a single-parent home it's almost certain to be true.
    So balancing work and family is a very real challenge for millions 
of workers in this country and is extremely important to their 
children.
    Many years ago, when my children were not parents themselves, I was 
working full-time outside the home.
    It was a struggle to meet both the needs of my family as well as 
the responsibilities of my job.
    And as a human resource manager, I was aware that many of my 
employees were going through the same thing.
    Unfortunately, some 30 years later, nearly every parent is under 
these pressures, and men as well as women are desperate for work-life 
balance.
    One of the main reasons I ran for congress over 18 years ago was to 
fight for working families.
    I was a new member when we passed the Family and Medical Leave Act 
(F-M-L-A), and I knew what an important step we were taking--
particularly for working women--to provide job-protected family and 
medical leave for certain workers, even though it was unpaid.
    Since then we have learned that more than 100 million leaves have 
been taken under the FMLA; that nearly 2 in 3 workers are not covered 
by the act; and even if they are, most can't take advantage of its 
provisions because they simply cannot afford to take unpaid leave.
    About 8% of workers are fortunate to receive paid leave through 
their work, so we have a lot of room for improvement.
    In fact, the U.S. lags far behind the rest of the world in 
providing paid leave and other work-life benefits to employees.
    It is unacceptable that our country, which is the number one 
economy in the world--can barely compete with developing nations in 
this arena.
    Workers should not have to choose between work and family, which is 
why I have introduced the balancing act, H.R. 3047, which lays out a 
blueprint for balancing work and family.
    This effort to bring balance between home and the workplace must be 
waged on all fronts, and many in the business world are leading the 
way.
    These companies know that providing work-life benefits increases 
retention, decreases absenteeism, and increases productivity.
    And through recognition awards by such entities as Working Mother 
magazine, along with the Alfred P. Sloan Foundation and the Families 
and Work Institute, employers are encouraged to assist their employees 
in bridging the challenges of work and family by adopting good work-
life balance policies.
    The bill we are examining today provides another incentive for 
employers.
    I want to thank ranking member Cathy McMorris-Rodgers for her 
invaluable assistance in drafting this bill.
    H.R. 4855, the Work-Life Balance Award Act, establishes an award at 
the Department of Labor to be presented annually to employers of any 
size that have exemplary work-life policies.
    The bill also sets up an independent board appointed by the 
Secretary of Labor based on recommendations from Congress to develop 
criteria, as well as the application process.
    The board is also charged with providing recommendations to the 
secretary of qualifying employers.
    The board will consist of representatives from children and 
families' groups; state and local government; business or business 
organizations; and organized labor.
    We have made a great start by introducing this legislation, but I 
believe that when we mark this bill up in the committee, we can further 
improve it by adding the minimal requirements for the advisory board to 
use in establishing its criteria for awardees.
    For example, the bill should identify certain work-life practices 
on which employers would be measured.
    While I do not have an exhaustive list, these policies could 
include paid sick leave to care of oneself or a sick family member and 
for the birth or adoption of a child; time off to attend children's 
extracurricular activities and school conferences; telecommuting; job 
sharing, and on site-child care.
    While the bill requires the board to consider only those employers 
who are in compliance with all labor and employment laws, we certainly 
should consider the ``whole company'' as an example of a good employer, 
so an employer with wage and hour or OSHA citations may not qualify.
    I would also be very interested in any suggestions that our 
witnesses have.
    Creating an award at the U.S. Department of Labor is important so 
that we can send the message that the federal government supports and 
encourages work-life balance.
    This award, however, is not intended to supplant other awards, but 
to complement ongoing efforts.
    Again thank you for coming, and I look forward to hearing from our 
wonderful witnesses.
    I now yield to ranking member McMorris-Rodgers for her opening 
statement.
                                 ______
                                 
    Mr. Wilson. Thank you, Madam Chair. I would like to thank 
you for having the hearing today. I understand the ranking 
member, McMorris Rodgers, should arrive shortly and will give a 
statement, so I will be brief in my opening comments.
    I just want to extend a warm welcome to our distinguished 
panel of witnesses. It is like Old Home Week for me to be back, 
and I appreciate the enthusiasm of our chair.
    We look forward to your testimony and to an examination of 
H.R. 4855, the Work-Life Balance Award Act. Again, thank you to 
the witnesses for agreeing to appear here today.
    And with that, I yield back.
    [The statement of Mr. Wilson follows:]

  Prepared Statement of Hon. Joe Wilson, a Representative in Congress 
                    From the State of South Carolina

    Thank you, Madam Chair. I would like to thank you for having this 
hearing today. I understand that Ranking Member McMorris Rodgers should 
arrive shortly and will give a statement, so I will be brief in my 
opening comments. I just want to extend a warm welcome to our 
distinguished panel of witnesses. We look forward to your testimony and 
to an examination of H.R. 4855, the Work-Life Balance Award Act. Again, 
thank you to the witnesses for agreeing to appear today. And with that, 
I yield back.
                                 ______
                                 
    Chairwoman Woolsey. Thank you, Congressman.
    Without objection, all members will have 14 days to submit 
additional materials for the hearing record.
    Now I would like to introduce our very distinguished panel 
of witnesses that are here with us this morning.
    And in the order that you will be heard, I will introduce 
you now, and then we will go in that order.
    Carol Evans is the CEO and founder of Working Mother Media. 
Prior to founding Working Mother Media, she served as chief 
operating officer of the--of the Chief Executive Group 
publishing Chief Executive Magazine. She has been involved with 
Working Mother magazine since it was launched in 1978. She 
holds a B.A. from Empire State College.
    The Honorable Victoria Lipnic was sworn in Tuesday as a 
commissioner of the U.S. Equal Opportunity Employment 
Commission. However, she is not testifying in that capacity 
today. She had previous practice--previously practiced law at 
the Washington, D.C. office of Seyfarth Shaw and from 2002 to 
2009 was the U.S. Assistant Secretary of Labor for Employment 
Standards. Ms. Lipnic has also served as the counsel for this 
committee. She received a J.D. from George Mason University 
School of Law and a B.A. from Allegheny College.
    It is nice to see you again.
    China Miner Gorman is the Chief Global Member Engagement 
Officer of the Society for Human Resources Management--yes, 
SHRM. Ms. Gorman joined SHRM in 2007 as its chief operating 
officer and has more than 25 years of experience in human 
resources. Prior to joining SHRM, she was president of DBM 
North America and president of Lee Hecht Harrison. Ms. Gorman 
earned a B.A. from Principia College.
    Portia Wu is Vice President of the National Partnership for 
Women and Families, a nonprofit, nonpartisan advocacy group 
dedicated to promoting policies that help individuals meet the 
dual demand of work and family. From 2003 to 2010 she was a 
staffer on the Senate Health Committee, serving most recently 
as labor policy director, general counsel. She has earned her 
B.A. and J.D. from Yale University and a master's degree from 
Cornell University.
    What a panel. Are we honored. I welcome you all. I need to 
tell you about the lighting system. You probably don't need me 
to tell you this. When you begin speaking the light will go on, 
and it will be green. You have 5 minutes. At 4 minutes the 
light will turn yellow, orange-y yellow, and then you will have 
a minute to wrap--to come to a conclusion.
    The floor doesn't open up at 5 minutes. You get to finish 
your sentence and your thought. And if you are--you haven't 
gotten as far as you thought you would, we will hopefully be 
able to clean all that up when you are--when we ask questions 
and get the discussion going.
    So that is where we are, and we are now going to hear from 
our first witness, Carol Evans.

              STATEMENT OF CAROL EVANS, PRESIDENT,
                      WORKING MOTHER MEDIA

    Ms. Evans. Thank you so much.
    Madam Chairwoman and members of the subcommittee, I am 
pleased to appear before you today to support the proposed 
Work-Life Balance Award Act of 2010, H.R. 4855, introduced by 
Representatives Lynn Woolsey and George Miller.
    And I must say, thank you for having me. I turned the timer 
so I could see it because I speak extemporaneously a lot and 
often ignore the timer, so I am trying to behave.
    I applaud this effort to raise awareness of work-life 
balance challenges faced by working mothers in the United 
States. And I would like to suggest a public-private 
partnership tweak to this vital bill. There are 31 million 
women in this country who are both employed and have children 
under the age of 18 living at home.
    Working mothers have fueled the U.S. economy for more than 
three decades by adding their productivity to the labor force 
while having children and raising the next generation of our 
citizens and of our workforce.
    In recognition of the importance of keeping our workforce 
strong and our home fronts stable, government and companies 
should be doing all they can to support working moms and dads.
    In many countries around the world, government is in the 
lead in supporting working mothers, mandating paid maternity 
leave, paid paternity leave, providing high-quality child care, 
and requiring flexible work hours.
    In the United States, our government mandates unpaid 
maternity leave and requires equal pay by gender, but 
progressive support for working moms comes from companies, 
large and small, public and private, for-profit and nonprofit, 
voluntarily leading the way.
    In October of this year, Working Mother magazine will 
celebrate the 25th anniversary of the Working Mother 100 Best 
Companies Award. This award began in 1986 when Working Mother 
magazine decided to shine a spotlight on the work-life balance 
needs of working moms by creating an award for companies that 
take a leadership position in supporting employees with 
children.
    The Working Mother 100 Best Companies Award has set the 
standard for best practices in support of working moms year 
after year. Companies must apply for the award annually by 
submitting statistical data to the magazine. The application 
includes, actually, some 700 questions this year on workforce 
compensation, child care, flexible work arrangements, parental 
leave policies, company culture, representation of women, 
health and wellness benefits, and much more.
    We measure not only programs and policies of companies but 
also what percentage of employees have access to these 
benefits, and how many employees actually use the benefits. The 
application is revised annually by our editors and researchers 
to reflect progress that has been made in every cluster of 
information in order to keep encouraging forward movement.
    We utilize proprietary software that objectively scores the 
data and comparatively ranks the companies. The corporate 
commitment needed to apply is enormous, some companies saying 
that it takes as much as 1,000 man hours to fill out our 
application. And the prestige generated by winning a place on 
the annual list is equally enormous.
    We publish more that 90 pages of editorial material about 
the Working Mother 100 Best Companies in the October issue for 
our 2 million readers to read and learn from and for the H.R. 
professionals who also follow this issue in our magazine.
    We manage a public relations campaign that generates nearly 
1 billion media impressions about work-life balance all around 
the country and the world. We offer year-round coverage of our 
best company initiatives on workingmother.com, making that 
information searchable and available to a broad universe of 
interested parties, including companies, governments and 
individuals.
    Also, we host every year the nation's largest conference on 
work-life issues with what we call the annual WorkLife 
Congress--very appropriately named--where 500 top human 
resource executives learn exactly how the programs, policies 
and practices of the Working Mother 100 Best Companies work, so 
that they can take these best practices back to their 
organizations and not have to reinvent the wheel at every 
organization.
    The award proposed in the Woolsey-Miller bill will add a 
tremendous spotlight to the light that we all shine on the 
needs of working families, and we applaud anything that really 
helps bring the needs of working families into the forefront of 
the imagination of the American people and the American 
government.
    I applaud your effort, and here is the tweak that I 
proposed of a public-private partnership. I believe that 
Working Mother Media and the other organizations that already 
have accomplished so much in this area should create a 
partnership with the U.S. government to alleviate some of the 
formidable challenges that this committee will face in 
launching this effort.
    The partnership would draw upon the enormous work that we 
and others do for the 100 Best Companies Award, allowing 
Congress to recognize our winners or the winners of other 
organizations' lists, to celebrate them at a ceremony on 
Capitol Hill, and to participate in the WorkLife Congress and 
other conferences run by the other organizations.
    Our 25 years of experience and their many years of 
experience--sorry, I told you I am renegade on time--will make 
the award proposed in the Woolsey-Miller bill effective, as 
well as efficient. We have used our unique methodology, 
proprietary software and our internal experts to support other 
workforce groups as well.
    We reward the best companies for multicultural women, best 
law firms for women, best companies for hourly workers, and the 
best of Congress, which you know all about.
    [The statement of Ms. Evans follows:]

   Prepared Statement of Carol Evans, President, Working Mother Media

    Madame Chairwoman, and Members of the Subcommittee, I am pleased to 
appear before you today to support the proposed Work-Life Balance Award 
Act of 2010 (H.R. 4855) introduced by Representatives Lynn Woolsey (CA) 
and George Miller (CA). I applaud this effort to raise awareness of 
work-life balance challenges faced by working mothers in the United 
States.
    There are 31 million women in this country who are both employed 
and have children under the age of 18 living at home. Working mothers 
have fueled the U.S. economy for three decades by adding their 
productivity to the labor force while having children and raising the 
next generation of citizens. In recognition of the importance of 
keeping our workforce strong and our home front stable, government and 
companies should be doing all they can to support working moms.
    In many countries around the world, government is in the lead in 
supporting working mothers, mandating paid parental leave, providing 
high-quality child care and requiring flexible work hours. In the 
United States, our government mandates unpaid maternity leave and 
requires equal pay by gender, but progressive support for working moms 
comes from companies-large and small, public and private, for profit 
and non-profit--voluntarily leading the way.
    In October of this year, Working Mother magazine will celebrate the 
25th anniversary of the Working Mother 100 Best Companies Award. This 
award began in 1986, when Working Mother magazine decided to shine a 
spotlight on the work-life balance needs of working moms by creating an 
award for companies that take a leadership position in supporting 
employees with children.
    The Working Mother 100 Best Companies Award has set the standard 
for best practices in support of working moms year after year. 
Companies must apply for the award annually by submitting statistical 
data to the magazine.
    The application includes some 600 questions on workforce 
compensation, child care, flexible work arrangements, parental leave 
policies, company culture, representation of women, health and wellness 
benefits and more. We measure not only programs and policies of 
companies, but also what percentage of employees has access to these 
benefits and how many employees actually use them.
    The application is revised annually by our editors and researchers 
to reflect progress that has been made in every cluster of information 
in order to keep encouraging forward movement. We utilize proprietary 
software that objectively scores the data and comparatively ranks the 
companies. The corporate commitment needed to apply is enormous, as is 
the prestige generated by winning a place on the annual list.
    We publish more than 90 pages of editorial about the Working Mother 
100 Best in the October issue for our more than 2 million readers. We 
manage a public relations campaign that generates nearly a billion 
media impressions about work life balance.
    We offer year-round coverage of our Best Companies initiatives on 
workingmother.com, making that information searchable and available to 
a broad universe of interested parties. We host the nation's largest 
conference on work life issues with the annual WorkLife Congress where 
500 top human resource executives learn exactly how the programs, 
policies and practices of the Working Mother 100 Best Companies work so 
they can take these best practices back to their organizations.
    The award proposed in the Woolsey-Miller bill will add to the 
tremendous spotlight we shine on the needs of working families. I 
applaud this effort. A partnership between Working Mother and the U.S. 
government might alleviate some of the formidable challenges the 
committee would face in launching this effort.
    The partnership would draw upon the enormous work we do for the 
Working Mother 100 Best Companies Award, allowing Congress to recognize 
our winners, celebrate them at a ceremony on Capitol Hill and 
participate in the WorkLife Congress. Our 25 years of expertise would 
make the award proposed in the Woolsey-Miller bill efficient as well as 
effective. Working Mother magazine has used our unique methodology, our 
proprietary software and our internal experts to support other 
workforce groups as well.
    We reward the Best Companies for Multicultural Women, Best Law 
Firms for Women, Best Companies for Hourly Workers and Best of 
Congress, which has honored 26 members of this august body for the 
support they give to their own working mom and dad staffers.
    Other organizations recognizing companies that excel at work life 
balance include the Families and Work Institute, Catalyst, and the 
Society of Women Engineers.
                                 ______
                                 
    Chairwoman Woolsey. Good stopping place.
    Ms. Evans. Good stopping place, okay.
    Chairwoman Woolsey. All right. Thank you very much, Carol.
    Ms. Evans. Thank you.
    Chairwoman Woolsey. Ms. Lipnic?

    STATEMENT OF HON. VICTORIA LIPNIC, COMMISSIONER, EQUAL 
               EMPLOYMENT OPPORTUNITY COMMISSION

    Ms. Lipnic. Thank you, Chairwoman Woolsey, Congressman 
Wilson, members of the committee. Thank you for inviting me to 
testify before the subcommittee today. My name is Vicky Lipnic 
and, as you mentioned, as of 2 days ago I was sworn in as a 
commissioner at the EEOC.
    Just prior to my appointment to the commission, I was an 
attorney with the national law firm of Seyfarth Shaw in the 
Washington, D.C. office, where I regularly counseled clients on 
labor and employment matters. And I have practiced labor and 
employment law for nearly 18 years, in many forums, including 
as Assistant Secretary of Labor for Employment Standards at the 
Labor Department.
    And at the Labor Department I was responsible for 
enforcement of, among other things, affirmative action, and 
equal employment opportunity, and the Fair Labor Standards Act, 
and the Family and Medical Leave Act.
    As you mentioned, Congressman Woolsey, and I just want to 
make clear, I am not in any way testifying in my capacity as a 
commissioner of the EEOC, and my testimony does not represent a 
position of the EEOC or the Obama administration.
    I do want to thank you, though, Madame Chairwoman and 
Congresswoman McMorris Rodgers, and also Congressman Wilson, 
for your commitment to issues facing America's working 
families. And it is always, as you mentioned, a special honor 
for me to appear before this committee.
    I also want to point out that I offer my testimony today 
with the full recognition of the extraordinary employment 
situation facing Americans in terms of the jobs situation. And 
one of six Americans is out of work.
    We all know how many jobs we have lost over the past 2 
years. And many Americans are facing and struggling to find 
work, and I am very cognizant of that situation and would not 
in any way want a discussion about workplace flexibility 
policies to diminish the priority of job creation.
    Like many practitioners and policymakers involved in the 
labor and employment and--field over the last 20 years, I have 
studied much of the research that has been done in the area of 
workplace flexibility and, as Carol mentioned, much of that 
started with the introduction of the Family and Medical Leave 
Act in the 1980s. There is a very well developed body of 
research on--in this area, and most of that has developed as 
the labor force participation rate of women has increased over 
the last 30 years.
    And I won't get into all of that research. As I said, there 
is a very well developed body in that area.
    A couple of things that I will point out, though, is that 
it--certainly, it is the case that for many years many 
employers have been looking for ways to provide more 
flexibility in the working lives of their employees, and they 
do this for all of the reasons that you mentioned, including 
recruiting, particularly for retaining workers, which becomes a 
very big issue in the private sector.
    Just to offer some of my own experience, my experience with 
my law firm, Seyfarth Shaw--they offer a very well established 
alternative work schedule for attorneys. This program was 
specifically created with the recognition that the firm did not 
want to lose the talent in which it had invested significant 
time and energy but that not everyone wants or is able to meet 
the demands of a full-time schedule or a full-time legal 
practice.
    The firm also has policies, which allow exempt employees to 
make use of technology and work from home, depending on their 
business needs, and many firms follow in this practice and, in 
fact, probably many of these firms have applied for the Working 
Mother magazine award.
    The same is also true now--and I will point out with my 
once past, now current employer, the federal government, which 
offers flexible schedules depending on the operational needs of 
a particular office, and I know in particular in the 
Washington, D.C. metropolitan area that the federal government 
has encouraged and been encouraged by members of this committee 
in particular for quite some time to provide telecommuting 
options to many employees.
    So overall, any initiative that encourages voluntary 
efforts for employers to offer workplace policies that work for 
their employees is something that I would support as a matter 
of public policy.
    And I just want to turn very quickly, as I think all of the 
testimony will reflect today, there are many awards that are 
given in the private sector. And if I could just tell you 
briefly about my experience at the Labor Department and also at 
the Department of Commerce--I worked for three cabinet 
secretaries in my career, two Secretaries of Commerce, Malcolm 
Baldrige and William Verity, and Secretary of Labor Elaine 
Chao.
    When I was much younger, I played a very small role in the 
development of the Malcolm Baldrige National Quality Award. 
That award was established by Congress in 1987. It is still 
around today. It is an annual award that recognizes U.S. 
organizations in business, health care, education, nonprofit, 
all for performance excellence in their organizations.
    And I think if you look at that award, many of the 
companies who have won that award in the past will tell you 
that the mere process of going through the application and 
applying for that award and the criteria that they have to meet 
to try to get it has a dramatic impact on the organization.
    The same certainly was my experience at the Department of 
Labor with the Office of Federal Contract Compliance Programs, 
which administers what is known as the Secretary's EVE Award. 
Those are awards that are given to companies for voluntary 
efforts on equal employment opportunity.
    It is an extensive application process, and I presided 
over, along with the Secretary of Labor, that award every year 
at the Department of Labor, and I can tell you it was among the 
most meaningful things that I did as assistant secretary.
    The organizations who received that award would tell you 
that it was incredibly valuable to them to have both gone 
through the process and then if they actually received the 
award, and that, I believe, was actually transformational. And 
I would hope that this award would have that same impact.
    And the rest of my statement is in the record, and happy to 
help on any drafting issues with this bill. Thank you.
    [The statement of Ms. Lipnic follows:]

      Prepared Statement of Hon. Victoria A. Lipnic, Commissioner,
              U.S. Equal Employment Opportunity Commission

    Good morning Chairwoman Woolsey, Ranking Member McMorris Rodgers 
and distinguished members of the subcommittee. Thank you for inviting 
me to testify before the subcommittee today. My name is Victoria 
Lipnic. I am, as of two days ago, a Commissioner with the U.S. Equal 
Employment Opportunity Commission. Just prior to my appointment to the 
Commission, I was an attorney with the national law firm Seyfarth Shaw 
LLP, resident in the Washington, D.C. office, where I regularly 
counseled clients on a variety of labor and employment issues. For 
nearly 18 years, I have practiced labor and employment law in many 
forums: in private practice; as in-house counsel; and in government 
service. I served as the Assistant Secretary of Labor for Employment 
Standards at the U.S. Department of Labor, where I was responsible for 
the administration and enforcement of numerous federal labor standards, 
including the Family and Medical Leave Act and the Fair Labor Standards 
Act and the equal employment opportunity and affirmative action 
obligations of federal contractors.
    I am appearing before you today to offer my perspective on the 
recently introduced H.R. 4855, the ``Work-Life Balance Award Act.'' I 
want to make clear that I am not in any way testifying in my official 
capacity as a Commissioner of the EEOC and my testimony does not 
represent a position of the EEOC or the Obama Administration.
    First, I want to commend you Madame Chairwoman and Congresswoman 
McMorris Rodgers for your commitment to issues facing America's working 
families.
    Second, as you may know, I have also served as counsel to this 
committee. It is always a special honor for me to be asked to appear 
here.
    Third, I would like to point out that I offer my testimony today 
with full recognition of the extraordinary distress facing the American 
workforce in terms of the jobs situation. One in six Americans is out 
of work; weve lost 8 million jobs in the past two years and many 
American families are struggling to find (and keep) work. I am very 
cognizant of that situation and would not want any discussion about 
workplace flexibility policies to diminish the priority of job 
creation.
    Like many practitioners and policymakers involved in the labor and 
employment legal and policy field, I have studied much of the research 
that has been done in the area of work life flexibility over the past 
nearly three decades. I have spent the better part of nearly 20 years 
studying this research, and I had a unique opportunity as Assistant 
Secretary of Labor to do so. Much of the research in the area of the 
work-life relationship evolved from the national conversation that 
began with the introduction of the first Family and Medical Leave Act 
proposal in the 1980's. At that time the conversation was focused on 
the choice that often faced workers who were dealing with a personal 
illness or caring for an ill family member: do I choose my (or my loved 
one's) health care or my job. With the passage of the Family and 
Medical Leave Act and the numerous state equivalents, the conversation 
has moved away from that central question and now includes a wide 
variety of issues related to the intersection of a worker's work life 
and home life. Today, the discussion incorporates much more than the 
concerns about the time for work and care-giving (whether that is child 
care or elder care). In fact, society, in general and many workers, in 
particular, have changing attitudes about how much time people want to 
spend at work, to earn a decent living, and how much time those same 
people want to spend pursuing other interests. So, as an initial 
matter, I think the title of your bill--``Work-Life'' balance is 
appropriate given how that national conversation, and the research that 
has gone into it has evolved--and will continue to evolve.
    The desire for some balance between work and family has been with 
us since the Industrial Revolution. People moved off of family farms to 
manufacturing and other industrial settings, then moved to corporate 
workplaces. At each step, people left their homes and families to earn 
their livelihood. At each step the desire--and in many cases, the 
need--for balance has increased. It has continued, also, as the labor 
force participation rate of women has increased.\1\ And certainly this 
desire for workplace flexibility--to help workers achieve that better 
balance for their families and careers--is well-documented in all of 
the research and employee surveys.
---------------------------------------------------------------------------
    \1\ As of February 2010, the labor force participation rate of 
women is 58.6%.
---------------------------------------------------------------------------
    For many years now, many employers have been looking for ways to 
provide more flexibility in the working lives of their employees. They 
do this for many reasons including recruiting and, in particular, for 
retaining workers. Just to offer some private sector experience, for 
example, my prior law firm, Seyfarth Shaw, offers a well-established 
Alternative Work Schedule for attorneys. This program was specifically 
created with the recognition that the firm did not want to lose talent 
in whom it had invested significant time and energy, but that not 
everyone necessarily wants or is able to meet the demands of a full-
time schedule or a full-time legal practice. The firm also has policies 
which allow exempt employees to make use of technology and work from 
home depending on the business needs. And, the firm encourages both 
legal and non-legal staff to take time to participate in community 
service, offering yet another recognition of the desire for work-life 
balance. Many firms have similar programs. The same is true with my now 
current employer, the federal government, which offers flexible 
schedules depending on the operational needs of a particular office. 
Also, the federal government, particularly in the Washington, D.C. 
metropolitan area has been encouraged by members of Congress for quite 
some time to provide telecommuting options to many employees where such 
work can appropriately be done.
    So, any initiative that encourages voluntary efforts for employers 
to offer work-life policies that work best for their employees and meet 
their operational needs at the same time is worthwhile. I support such 
initiatives by private entities and as a matter of public policy. The 
ability of employers to have the creativity to adopt policies that work 
in their workplaces is critical to their ability to compete in our 
global economy.
    Turning specifically to H.R. 4855, my approach generally on any 
proposed legislation, as a first principle of inquiry is: does the 
government need to do this?
    Certainly, there are private sector organizations who provide 
similar recognition to what the Work-Life Balance Award would provide. 
The Alfred P. Sloan Award for Business Excellence in Workplace 
Flexibility (in conjunction with the U.S. Chamber of Commerce's 
Institute for a Competitive Workforce) has been around for many years. 
That award is backed by years of well-developed research and nationally 
representative data from the Families and Work Institute and uses 
benchmarked criteria. Working Mother magazine also has a well-
established award where they name the ``100 Best Companies to Work 
For'' every year. Work-life balance policies are a part of that 
assessment. Fortune magazine names the ``100 Best Companies'' every 
year in partnership with the Great Place to Work Institute and conducts 
an extensive employee survey in corporate America. And there are many 
local chambers of commerce who give awards every year. A few years ago, 
I participated in a conference in conjunction with a similar 
benchmarked award about ``great places to work'' in Omaha, Nebraska.
    On a local level, the cover story of the November 2009 edition of 
The Washingtonian magazine featured that magazine's biannual ``Great 
Places to Work,'' after considering more than 200 employers and 13,000 
employee surveys.
    With so many similar awards already out in the marketplace, it is 
fair to ask whether this award will serve a worthwhile purpose? I think 
the answer to that is yes. Let me give you a couple of perspectives on 
that.
    I have worked for three cabinet secretaries in my career. Two 
Secretaries of Commerce, Malcolm Baldrige and William Verity and 
Secretary of Labor Elaine Chao. In my tenure at the Department of 
Commerce, I played a small role in the establishment of the Malcolm 
Baldrige National Quality Award.\2\ That award, established by Congress 
in 1987 and still around today, is an annual award that recognizes U.S. 
organizations in the business, health care, education, and nonprofit 
sectors for performance excellence. Up to 18 awards may be given 
annually across six eligibility categories. As of 2009, 84 
organizations had received this prestigious award; since 1988, 1,394 
applications have been received from a wide variety of types and sizes 
of organizations. That award involves an extensive application and 
review process with very rigorous criteria to be met. Testimonials from 
many winners of the award in the past tell us that the mere process of 
applying for the award caused their organizations to evaluate and 
enhance and improve their business quality processes in ways they may 
not have done had they not aspired to win the Baldrige Award.
---------------------------------------------------------------------------
    \2\ The Malcolm Baldrige National Quality Award, given annually, is 
the only formal recognition of the performance excellence of U.S. 
organizations given by the President of the United States. It is 
administered by the Baldrige National Quality Program, which is based 
at and managed by the National Institute of Standards and Technology, 
an agency of the U.S. Department of Commerce. The Baldrige criteria for 
performance excellence are designed to help organizations improve their 
performance by focusing on two goals: delivering ever improving value 
to customers and improving the organization's overall performance. To 
apply for the award, organizations must submit details showing their 
achievements and improvements in seven key areas: leadership; strategic 
planning; customer and market focus; measurement, analysis, and 
knowledge management; workforce focus; process management; and results. 
See http://www.nist.gov/public--affairs/factsheet/mbnqa.
---------------------------------------------------------------------------
    At the Department of Labor, the Office of Federal Contract 
Compliance Programs (OFCCP), which was part of my portfolio at the 
Department, annually gives Secretary of Labor's Opportunity Award, the 
Exemplary Voluntary Efforts (EVE) Awards, and the Exemplary Public 
Interest Contribution Awards (EPIC) (referred to collectively as ``the 
EVE awards'').\3\ Those awards are given every year to organizations 
which exhibit best practices in equal employment opportunity. There is 
an extensive application process and many of the applicants will work 
with regional and district offices of OFCCP to assist with the 
application.
---------------------------------------------------------------------------
    \3\ Each year, the Secretary of Labor and the Director of OFCCP 
present these awards at a ceremony honoring federal contractors and 
non-profit organizations that exemplify best corporate practices. The 
Secretary of Labor's opportunity Award honors one federal contractor 
each year that has established and instituted comprehensive workforce 
strategies to ensure equal employment opportunity. The Exemplary 
Voluntary Efforts (EVE) Award honors federal contractors that have 
demonstrated through programs or activities, exemplary and innovative 
efforts to increase the employment opportunities of employees, 
including minorities, women, individuals with disabilities, and 
veterans. The Exemplary Public Interest Contribution (EPIC) Award 
honors public interest organizations that have supported equal 
employment opportunity and linked their efforts with those of federal 
contractors to enhance the equal employment opportunities for 
minorities, women, individuals with disabilities, and veterans. These 
awards have been given by the Department of Labor since 1988. See 
http://www.dol.gov/ofccp.
---------------------------------------------------------------------------
    I participated in the EVE awards ceremony every year at the 
Department of Labor. The award winners send representatives of their 
organizations to the award ceremony. For the organization or company 
that received the highest award the Chief Executive Officer of the 
company would generally come to accept it. My experience with the OFCCP 
EVE awards was among the most meaningful things I participated in as 
Assistant Secretary. And that was because it was so evident how 
incredibly valuable it was to the organizations who received the award 
and how meaningful it was to the staff of OFCCP who participated in 
assisting the award winners.
    There is tremendous prestige associated with winning an award from 
a Cabinet secretary. The prestige of receiving an award from the 
Secretary of Labor cannot be discounted in the analysis of whether the 
Work-Life Balance Award is worthwhile. In private practice, I have 
encountered a number of employers, clients of my former firm Seyfarth 
Shaw, who proudly told me they had received the Secretary of Labor's 
Opportunity or EVE award. My former firm encouraged employers to apply 
for the award as part of our affirmative action and diversity practice. 
Companies that may have won that award years ago, point to it as an 
example of how ahead of the time they were in the equal employment 
opportunity efforts. That award--for the organizations who receive it--
I believe, is transformational. It serves a similar function to the 
Baldrige National Quality Award--the mere effort of applying for the 
award and having to raise the organization's performance level (in this 
case for equal employment opportunity efforts) had a major impact on 
the organization.
    I would hope and expect that, if done well, the Secretary's Work-
Life Balance Award would have the same impact.
    Another important question to ask--given that there are other 
awards out in the marketplace--some of which get the winners on the 
covers of prominent magazines--is, is it worth going to the trouble of 
establishing it? In other words, will companies participate in the 
competition? I think the answer to that is yes, as well, for many of 
the same reasons described above.
    Let me point out a few general issues with the bill and then some 
specific drafting questions.
    The bill may not need to specify this, but you should consider 
including in report language or statements for the record on the floor: 
the award should be housed and dedicated to a particular agency at the 
Department of Labor and not in the Office of the Secretary. As the bill 
recognizes, once the Board establishes the specific criteria for the 
award, it is critical to have and develop the institutional and career 
staff experience at the Department of Labor with the award. There is, 
for example, years of experience at the Department of Labor with how 
the Office of Federal Contract Compliance Programs administers the 
Secretary's EVE awards. No such institutional experience exists in the 
Office of the Secretary. The same applies to the Baldrige National 
Quality Award which is administered by the National Institute of 
Standards and Technology at the Department of Commerce. Given the 
issues addressed by the Work-Life Balance Award, the Department's 
Women's Bureau may be a very likely place to house this award at the 
Department of Labor.
    Second, I would ensure that the award comes out of existing funds 
at the Department. The Department of Labor received significant 
increases in its budget through the stimulus bill last year (the 
American Recovery and Reinvestment Act) along with the further 
resources it received through the fiscal year 2010 appropriation.\4\ 
The Department has requested more resources for this year's fiscal year 
2011 budget. The Women's Bureau received an increase in the fiscal year 
2010 budget and has asked for more resources in the proposed fiscal 
year 2011 budget.\5\
---------------------------------------------------------------------------
    \4\ The Department of Labor (DOL) received $4.846 billion in 
discretionary funding in the stimulus bill (a 37.1% increase over 2009 
appropriations) and $29.521 billion in mandatory funding (mostly for 
unemployment insurance) for a total of #24.367 billion (or 31.8% of 
their total 2009 appropriations. DOL received $14.267 billion in 
discretionary funding in the fiscal year 2010 appropriations bill and 
$147.736 billion in mandatory funding (mostly unemployment insurance) 
for a total of $162.002 billion.
    \5\ The Women's Bureau had a budget of $10.419 million in fiscal 
year 2009. It received no additional funds in the stimulus bill, 
$11.604 million in the fiscal year 2010 appropriations, and has 
requested $12.255 million for fiscal year 2011.
---------------------------------------------------------------------------
    Finally, because this is a legislative hearing, let me turn to some 
specific comments about the drafting of particular provisions in the 
bill.
    In ``Sec. 2. Definitions (2)'' provides that ``the term ``work-life 
balance policy'' means a workplace practice designed to enable 
employees to achieve a satisfactory work-life balance'' (emphasis 
added.) In contrast, ``Sec. 4. Work-Life Balance Advisory Board (b)'' 
which deals with the responsibilities of the Board to set criteria to 
determine the recipients of the award provides in (A) that the Board 
should ``Identify those work-life balance policies, which if properly 
implemented, will permit employees to achieve a work-life balance.'' 
I'm not sure what the standard is for ``if properly implemented''. 
Secondly, is there some difference between the standard set out in the 
definitions of ``workplace practice designed to enable employees to 
achieve a satisfactory work-life balance''--versus the language in Sec. 
4 (b)(A) as to ``if properly implemented, will permit employees to 
achieve a work-life balance?''
    In ``Sec. 4, under (b) Duties'' clause (B) provides that the Board 
shall ``take into consideration an employer's record of compliance, or 
noncompliance, with Federal and State labor laws.'' While I understand 
the importance of this provision, it is potentially fraught with 
problems. I think it would be very important for the Board to be 
completely transparent about the criteria for judging an employer's 
``record of compliance or noncompliance with Federal and State labor 
laws.'' Let me give you an example--there are some very well known 
employers who have some of the most well-developed and ahead-of-the-
curve work-life policies who are also being sued for alleged violations 
of the wage and hour laws, both at a federal and a state level. They 
may end up settling those cases for millions of dollars with no 
admission of liability. If they settle those cases, how will that be 
viewed in terms of compliance or noncompliance with Federal or State 
labor laws?
    In ``Sec. 4 (b) Duties, clause (C) provides that the Board shall 
``seek input from all interested parties to assist in making a 
determination of the recipients of the Award, including input from 
stakeholders.'' It strikes me that the ``input from interested parties 
* * * including input from stakeholders'' should come at the beginning 
of the process--that is in establishing the criteria for the award, not 
in actually participating in judging who the recipients are. Making the 
decisions about the award winners, in order to ensure its objectivity, 
should be exclusive province of the Board, with the assistance of 
dedicated Department of Labor staff.
    In ``Sec. 4 (d) Membership,'' clause ``(4) Political 
Affiliation''--this clause puts a limitation on the Secretary such that 
``not more than 4 members of the Board appointed under paragraph (1) 
may be of the same political party.'' I question whether that clause is 
necessary given that the Secretary of Labor can only appoint members to 
the Board based on the recommendations of ``the Speaker and the 
minority leader of the House of Representatives'' and the ``majority 
and minority leader of the Senate.''
    Finally, ``Sec. 5. Regulations,'' provides ``The Secretary may 
prescribe regulations to carry out the purposes of this Act.'' Even 
though this is written in the permissive, such that there is no 
requirement that the Secretary issue regulations, it seems unnecessary 
to me. Regulations are about controlling behaviors and specifying 
outcomes for enforcement purposes. In the case of this award, I do not 
see a reason for the Secretary to be regulating.
    Again, Chairwoman Woolsey and Ranking Member McMorris Rodgers thank 
you for inviting me to testify. I'd be happy to take your questions.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much.
    Ms. Gorman?

STATEMENT OF CHINA MINER GORMAN, CHIEF GLOBAL MEMBER ENGAGEMENT 
         OFFICER, SOCIETY FOR HUMAN RESOURCE MANAGEMENT

    Ms. Gorman. Chairwoman Woolsey, Congressman Wilson and 
distinguished members of the subcommittee, I am China Gorman. 
As you know, I am the chief global member engagement officer 
for the Society of Human Resource Management, or SHRM.
    Representing more than 250,000 individual H.R. members, 
SHRM is the world's largest association devoted to serving the 
needs of human resource professionals and to advancing the best 
people management policies and practices.
    SHRM's members are responsible for designing and 
implementing organizations' benefit plans and policies that 
enable employees to meet the dual demands of work and their 
personal lives. Given the practical experience SHRM and its 
members possess, we have a unique voice and perspective when it 
comes to the issue of workplace flexibility.
    The bill before us would create the Work-Life Balance Award 
within the Department of Labor to recognize employers that are 
using innovative policies not only to enable employees to 
achieve a satisfactory work-life balance but to be more 
productive and more engaged in their work.
    SHRM commends both Chairwoman Woolsey and Ranking Member 
McMorris Rodgers for your leadership in developing this 
legislation, and we at SHRM support the Work-Life Balance Award 
Act. This is a reasonable bill designed to recognize those 
organizations who are delivering benefits that truly help their 
employees better balance their work and personal life 
obligations.
    This legislation affirms a key SHRM principle, incentives 
that encourage organizations to offer flexible workplace 
benefits and policies, allow employers to better meet the needs 
of their workforce, while also contributing to organizational 
success.
    As I have said in previous testimony to this subcommittee, 
our profession believes in the competitive advantages gained by 
any employer who offers a truly flexible workplace environment. 
Our members, who work in leading corporations and nonprofit 
organizations, have seen firsthand the impact that innovative 
benefits packages have on productivity, on morale, on employee 
engagement, and the ability to recruit and retain the best 
minds in the world.
    Further, H.R. professionals know that many of the most 
successful programs and policies are the result of local 
initiatives and innovations designed to respond to employees' 
needs, not from imposing a government mandate.
    At SHRM we strive--we strive to lead our members by example 
when it comes to workplace flexibility by offering a number of 
flexible work options, paid leave and policies that convey a 
message to our employees that we value and support their life 
outside of work. A significant number of our roughly 350 
employees utilize compressed work weeks, flex scheduling, 
telecommuting options and part-time work.
    Based on both our experience and the experience of our 
250,000 members, SHRM believes it is time to give employees 
choices and to give employers more predictability when it comes 
to workplace flexibility public policy. We believe employers 
should be encouraged to provide important work flex options 
that meet the needs of their work forces.
    While not the only solution, this bill moves in the right 
direction by serving as a catalyst to encourage more employers 
to adopt flexible work places. It will help foster the kind of 
creativity and innovation in the design of benefits plans that 
reflect employee and employer preferences.
    Last month, for example, SHRM hosted a Global Diversity & 
Inclusion Thought Leaders Summit, which brought together more 
than 100 senior-level public and private sector executives to 
explore innovative solutions that address several of the 
world's most pressing talent management challenges, including 
workplace flexibility.
    We continue to work with family advocates as well as other 
employee and employer groups to develop consensus proposals on 
expanding flexible work arrangements.
    In recognition of our leadership on this important issue, 
SHRM was invited to participate in the recent White House forum 
on workplace flexibility. This historic event helped highlight 
the many unique and innovative approaches employers are 
implementing to address employees' work-life needs.
    We are also hopeful that the effort mentioned above and the 
good work on this bill will lead to greater dialogue about 
workable public policy. Effective workplace policies must 
benefit both employees and employers, which is why government-
mandated imposition of so-called flexibility won't work.
    Productive and engaged employees thrive when they are 
permitted to work in ways that allow them to do their best. It 
is not possible to mandate a practice that is innovative for 
every workplace, that takes into account every type of worker 
and work situation, or that allows every employee to contribute 
in his or her own way.
    Instead, we need to encourage, not restrict, employers to 
develop new, more flexible ways to meet the needs of their 
employees and allow them to do their best.
    SHRM continues to advocate an alternative approach that for 
the first time reflects the different needs of individual 
workers plus the differences in work environments, union 
representation, industries, as well as organizational size.
    The Work-Life Balance Award Act is commendable in its 
intent, and it has the support of SHRM and our 250,000 members. 
I also pledge to this subcommittee that SHRM is committed to 
working with you and other members of Congress in crafting 
workplace flexibility public policy that works, policy that is 
designed for the workplaces of this century, not those of the 
past.
    Thank you.
    [The statement of Ms. Gorman follows:]

     Prepared Statement of China Miner Gorman, Chief Global Member 
       Engagement Officer, Society for Human Resource Management

    Chairwoman Woolsey, Ranking Member McMorris Rodgers, and 
distinguished members of the Subcommittee, my name is China Miner 
Gorman. I am the Chief Global Member Engagement Officer of the Society 
for Human Resource Management (SHRM), the world's largest association 
devoted to serving the needs of human resource professionals and to 
advancing the HR profession. On behalf of our approximately 250,000 
members, I thank you for the opportunity to appear before the 
Subcommittee as we discuss workplace flexibility and H.R. 4855, the 
Work-Life Balance Award Act.
    SHRM's members are the professionals responsible for designing and 
implementing organizations' benefit plans, programs and policies that 
enable employees to meet the dual demands of their work and personal 
life. HR professionals are continuously exploring ways to design 
policies that improve employee morale, engagement and retention--
essential elements in developing and maintaining a productive and 
competitive workforce. Given the practical experience SHRM and its 
members possess, we believe we are uniquely positioned to provide 
insight on this legislation and the issue of workplace flexibility.
H.R. 4855, the Work-Life Balance Award Act
    The focus of today's hearing is on H.R. 4855, the Work-Life Balance 
Award Act. This legislation would create the Work-Life Balance Award 
within the Department of Labor (DOL) to recognize employers that have 
developed and implemented innovative policies to enable employees to 
achieve a satisfactory work-life balance. The bill establishes a nine-
member, independent Advisory Board within the DOL composed of 
representatives of employee and employer groups to develop award 
criteria and select recipients.
    SHRM commends both Chairwoman Woolsey and Ranking Member McMorris 
Rodgers for their leadership in developing this legislation. We 
appreciate the bipartisan approach you undertook in negotiating the 
details of this bill and your willingness to incorporate changes based 
on the input from SHRM and other stakeholder groups. SHRM believes that 
this type of bipartisan approach to developing legislation, with open 
dialogue and input from both employee and employer groups, results in 
fewer unintended consequences and better workplace public policy.
    SHRM and its members support the Work-Life Balance Award Act, a 
common-sense bill to recognize and showcase those public and private 
organizations delivering benefit plans and policies that truly help 
their employees better balance their work and personal life 
obligations. We believe this measure is complementary to the philosophy 
of SHRM and its members, and highlights the importance of workplace 
flexibility. H.R. 4855 affirms a key SHRM principle with regard to 
workplace flexibility public policy--encouraging organizations to be 
innovative and flexible in the ways they offer flexible workplace 
benefits and policies can ultimately enable employers to better meet 
the needs of their workforce while also contributing to an 
organization's success.
    Certainly, recognizing employers for innovative work-life programs 
is nothing new, with many successful awards initiatives in existence 
today. For example, many are familiar with Forbes magazine's ``100 Best 
Companies to Work For,'' Working Mother magazine's ``Working Mother 100 
Best Companies'' and the leading national organizations awarded a 
coveted member of these exclusive lists.
    A pioneering program in the workplace flexibility arena funded by 
the Alfred P. Sloan Foundation is When Work Works. The program, a 
project of the Families and Work Institute in partnership with the U.S. 
Chamber of Commerce's Institute for a Competitive Workforce and the 
Twiga Foundation, recognizes employers, including small and mid-sized 
organizations, for their workplace flexibility programs with the 
influential Alfred P. Sloan Awards for Business Excellence in Workplace 
Flexibility. All of these outstanding initiatives have contributed to 
raising the profile of the important business implications associated 
with being an ``employer of choice.''
    Since there are many thriving awards programs currently in place, 
some may question the need to establish another award of this nature 
within the DOL. SHRM appreciates this concern and believes H.R. 4855 
would complement these other awards programs. We also encourage 
policymakers to consider these other award initiatives as this 
legislation moves forward. There may in fact be opportunities to learn 
from and/or collaborate with existing awards programs that could 
ultimately strengthen this type of federal award. In addition, we 
believe that the Work-Life Balance Award Act will be helpful in shining 
a national spotlight on an issue of societal importance. Congress, in 
1987, took a similar approach to address concerns over the quality and 
productivity of American business as it faced increased global 
competition by creating the Malcolm Baldrige National Quality Award. 
The award program, which is housed at the National Institutes of 
Standards & Technology, recognizes those companies and organizations 
that take steps to improve the quality and productivity of their 
businesses.
SHRM's Commitment to Workplace Flexibility
    Workplace demographics are changing. More employees, especially 
younger workers, are demanding flexible workplace arrangements. In 
addition, according to the Families and Work Institute, men are also 
experiencing an increased amount of work-life conflict. In response, 
companies are implementing workplace flexibility programs as part of a 
business strategy to enhance productivity and profitability. Many 
leading organizations have already implemented successful workplace 
flexibility programs. The results: more loyal employees, improved 
employee retention, better customer service, and increased 
productivity.
    Our profession believes in the competitive advantages gained by any 
employer who offers a truly flexible workplace environment. HR 
professionals believe that many of the successful programs and policies 
that are in the workplace today have been developed through local 
initiative and innovation responding to employee needs in balancing 
work and family obligations, not from imposing a government mandate.
    At SHRM, we strive to lead our members by example when it comes to 
workplace flexibility by offering a number of flexible work options, 
paid leave, and important policies that convey a message to our 
employees that we value and support their life outside of work. A 
significant amount of our roughly 350 employees utilize compressed work 
weeks, flex scheduling, telecommuting options, and part-time work. In 
addition, SHRM's standard work week is 37.5 hours. These policies are 
available to be requested by all SHRM employees, but the specific work 
arrangements are left to the individual supervisor and employee to 
finalize. For example, employees in SHRM's HR Knowledge Center, who 
answer questions from our members on a host of HR issues, almost 
exclusively work from home. SHRM's Regional Field Directors, whose job 
it is to serve as liaisons between our state councils and chapters, 
have their home as their principal office. Our Regional Field Directors 
conduct most of their business virtually, through conference calls and 
web conferences.
The Importance of Workplace Flexibility: A New Approach
    Based on both our experience and the experience of our members, 
SHRM believes it's time to give employees choices, and to give 
employers more predictability when it comes to workplace flexibility 
public policy. We believe employers should be encouraged to provide 
important work-flex options, including paid leave, that their 
workforces need. Although not the only solution, your bipartisan bill, 
the Work-Life Balance Award Act, moves in the right direction by 
serving as a catalyst to encourage more employers to adopt flexible 
workplaces. It will help foster expansion of the kind of creativity and 
innovation in the design of benefits plans that reflect employee and 
employer preferences.
    At SHRM, we are committed to leading a new dialogue on workplace 
flexibility, one that incorporates employee and employer perspectives. 
Last month, SHRM hosted a Global Diversity and Inclusion Thought 
Leaders' Summit which brought together 100 senior-level public and 
private sector executives to explore innovative solutions to address 
several of the world's most pressing talent management challenges, 
including workplace flexibility. Many of the best and brightest minds 
in the field noted the positive bottom-line impact of flexible work 
arrangements. For example, when employers utilized new innovations and 
technologies to promote flexibility--focusing on output and results 
versus hours worked and/or face time--productivity rose, turnover 
declined, and employee engagement and morale increased.
    In recognition of our leadership on this important issue, SHRM was 
invited to participate in the recent White House Forum on Workplace 
Flexibility. This historic event helped highlight the many unique and 
innovative approaches employers are implementing to address employees' 
work-life needs. During a breakout session on the changing American 
workforce, Mike Aitken, SHRM's Director of Government Relations, noted 
that many employers encounter challenges with outdated labor laws when 
designing innovative, 21st Century workplace policies and programs. In 
addition, we were heartened to hear that under Director John Berry, the 
United States Office of Personnel Management will pilot several 
flexible work arrangements, including a Results-Only Work Environment 
(ROWE), telecommuting and other flexible work arrangements. This is a 
positive development and we look forward to the federal government's 
leadership in this area.
    SHRM's efforts to broaden the dialogue on workplace flexibility are 
ongoing. We continue to work with family advocates, including the 
National Partnership for Women and Families, Workplace Flexibility 
2010, the American Association of People with Disabilities, as well as 
other stakeholder groups, to highlight the importance of Flexible Work 
Arrangements (FWAs) to both employers and employees. SHRM and these 
diverse stakeholders partnered in late 2009 to hold congressional 
briefings to emphasize our belief that flexibility is the key to 
meeting the varied needs of the 21st Century workplace. We are 
currently exploring elements of common ground on policy ideas for 
expanding FWAs in U.S. workplaces, with the hope that FWAs will be more 
widely accessible in more workplaces around the country in the not-so-
distant future.
    We are also hopeful that the effort mentioned above will lead to 
more dialogue about workable public policy in this critically important 
area. To be effective, workplace policies must work for both employers 
and employees, which is why government-mandated imposition of so-called 
flexibility won't work. Instead, employers need to not be restricted by 
proscriptive government rules, so that they can create innovative and 
more flexible ways to meet the needs of their employees. Accordingly, 
SHRM continues to advocate an alternative approach that--for the first 
time--reflects the different needs of individual workers, plus the 
differences in work environments, union representation, industries and 
organizational size.
    SHRM, and the HR profession it represents, believe that employers--
not the government--are in the best position to know the benefits 
preferences of their employees. When you impose a mandate, you remove 
or restrict an employer's flexibility in shaping policies that don't 
create undue hardships for either of the two parties in the equation. 
But when customized situational policies are in place, everybody wins. 
Employees get support in balancing work and life outside work, and 
employers get stability and predictability. The type of recognition 
provided by the Work-Life Balance Award would be a step in the right 
direction in encouraging more of those win-win scenarios.
SHRM's Principles for a 21st Century Workplace Flexibility Policy
    SHRM has developed a set of five principles to help guide the 
creation of a new workplace flexibility public policy. I have outlined 
our principles below:
    Shared Needs--SHRM envisions a ``safe harbor'' standard where 
employers voluntarily provide a specified number of paid leave days for 
employees to use for any purpose, consistent with the employer's 
policies or collective bargaining agreements. A federal policy should:
    <bullet> Provide certainty, predictability and accountability for 
employees and employers.
    <bullet> Encourage employers to offer paid leave under a uniform 
and coordinated set of rules that would replace and simplify the 
confusing--and often conflicting--existing patchwork of regulations.
    <bullet> Create administrative and compliance incentives for 
employers who offer paid leave by offering them a safe-harbor standard 
that would facilitate compliance and save on administrative costs.
    <bullet> Allow for different work environments, union 
representation, industries and organizational size.
    <bullet> Permit employers that voluntarily meet safe harbor leave 
standards to satisfy federal, state and local leave requirements.
    Employee Leave--Employers should be encouraged voluntarily to 
provide paid leave to help employees meet work and personal life 
obligations through the safe-harbor leave standard. A federal policy 
should:
    <bullet> Encourage employers to offer employees with some level of 
paid leave that meets minimum eligibility requirements as allowed under 
the employer's safe-harbor plan.
    <bullet> Allow the employee to use the leave for illness, vacation, 
personal and family needs.
    <bullet> Require employers to create a plan document, made 
available to all eligible employees, that fulfills the requirements of 
the safe-harbor.
    <bullet> Require the employer to attest to the U.S. Department of 
Labor that the plan meets the safe harbor requirements.
    Flexibility--A federal workplace leave policy should encourage 
maximum flexibility for both employees and employers. A federal policy 
should:
    <bullet> Permit the leave requirement to be satisfied by following 
the policies and parameters of an employer plan or collective 
bargaining agreement, where applicable, consistent with the safe harbor 
provisions.
    <bullet> Provide employers with predictability and stability in 
workforce operations.
    <bullet> Provide employees with the predictability and stability 
necessary to meet personal needs.
    Scalability--A federal workplace leave policy must avoid a mandated 
one-size-fits-all approach and instead recognize that paid leave 
offerings should accommodate the increasing diversity in workforce 
needs and environments. A federal policy should:
    <bullet> Allow leave benefits to be scaled to the number of 
employees at an organization; the organization's type of operations; 
talent and staffing availability; market and competitive forces; and 
collective bargaining arrangements.
    <bullet> Provide pro-rated leave benefits to full-and part-time 
employees as applicable under the employer plan, which is tailored to 
the specific workforce needs and consistent with the safe harbor.
    Flexible Work Options--Employees and employers can benefit from a 
public policy that meets the diverse needs of the workplace in 
supporting and encouraging flexible work options such as telecommuting, 
flexible work arrangements, job sharing and compressed or reduced 
schedules. Federal statutes that impede these offerings should be 
updated to provide employers and employees with maximum flexibility to 
balance work and personal needs. A federal policy should:
    <bullet> Amend federal law to allow employees to balance work and 
family needs through flexible work options such as telecommuting, 
flextime, part-time, job sharing and compressed or reduced schedules.
    <bullet> Permit employees to choose either earning compensatory 
time off for work hours beyond the established work week, or overtime 
wages.
    <bullet> Clarify federal law to strengthen existing leave statutes 
to ensure they work for both employees and employers.
Conclusion
    The Work-Life Balance Award Act is commendable in its intent, and 
it has the support of SHRM's 250,000 members. This is a common-sense 
bill to recognize and showcase those public and private organizations 
delivering benefit plans and policies that truly help their employees 
better balance their work and personal life obligations. We believe 
this measure is complementary to the philosophy of SHRM and its members 
and highlights the importance of workplace flexibility.
    I also pledge to this subcommittee that SHRM is committed to 
working with you and other members of Congress in crafting workplace 
flexibility public policy that works--one that is designed for the 
workplaces of this century, not those of the past.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Ms. Wu?

 STATEMENT OF PORTIA WU, VICE PRESIDENT, NATIONAL PARTNERSHIP 
                     FOR WOMEN AND FAMILIES

    Ms. Wu. Chairwoman Woolsey, Representative Wilson, members 
of the subcommittee, thank you for inviting me here to testify 
on behalf of the National Partnership for Women and Families. 
We appreciate the bipartisan interest in this issue.
    And, Madam Chair, I particularly want to thank you. As the 
lead sponsor of the Balancing Act, the FIRST Act and the 
Domestic Violence Leave Act, you have been a true champion for 
working women and men.
    The National Partnership is pleased to support the Work-
Life Balance Award Act, and we urge the committee and the House 
to consider it as soon as possible. This legislation comes at a 
critical time, when Americans are facing increased 
responsibilities at home and at work.
    Women continue to be key care givers, but they also make up 
half of America's workforce, and their incomes are increasingly 
important to families' economic survival.
    Four in 10 mothers are the primary breadwinners in their 
households, and two-thirds of mothers contribute significantly 
to their families' income. Working men are also investing more 
time in child care. And many more Americans are taking on elder 
care responsibilities as our population ages.
    But while our society has changed, our public policies have 
not kept up.
    Madam Chair, as you highlighted, our only national work-
family law, the Family and Medical Leave Act, has helped 
millions of workers, but there are many needs it does not 
address. A huge portion of our population is not covered by the 
law, and many of those who are cannot afford to take the unpaid 
leave that the law provides.
    The economic crisis of the past 2 years has only 
intensified the need for action. Already vulnerable workers 
fear that asking for leave will jeopardize their jobs and 
economic security. In this climate, workplace policies that 
enable men and women by setting minimum standards to allow them 
to meet family and health needs without risking their job or 
income are more important than ever.
    Strong work-family policies not only help workers and their 
families, they are also good for businesses. They reduce 
turnover and illness-related costs, and we all benefit from the 
reduced spread of disease and lower health care costs when 
people can seek needed preventive care and also attend to 
urgent medical conditions.
    With these benefits for businesses, families, our economy 
and public health, it is no wonder that the overwhelming 
majority of Americans support common-sense policies that will 
help them meet the dual demands of work and family.
    It is time for our country's laws to catch up with our 
society's values. That starts with a national dialogue about 
policies that will help workers meet their family and work 
obligations. Toward this goal, we greatly appreciate the Obama 
administration's decision to convene a workplace flexibility 
forum.
    We recognize the wonderful work that Working Mother 
magazine and others have done to recognize employers. And we 
believe the Work-Life Balance Award Act plays a very important 
part in this process by recognizing employers that have led the 
way. We hope this award will provide a powerful incentive for 
more companies to adopt strong work-family policies.
    Madam Chair, you asked about possible criteria that could 
be used in applying an awards process of this kind. We 
respectfully suggest some requirements that could highlight 
best practices that benefit both employees and employers. 
First, it is vital to recognize the importance of paid leave.
    This includes paid sick days for workers and their families 
to address immediate medical needs and obtain preventive care. 
It also includes longer term paid leave for chronic or serious 
medical conditions.
    And because there are many families needs that do not fall 
within these categories, it is important to recognize policies 
that permit employees to structure flexible work arrangements. 
Policies must also be fair. That means they should apply 
equally to all workers at a company, and workers must be able 
to use leave or flexible arrangements without being penalized 
or losing the opportunity for promotion or higher wages.
    Finally, we believe that policy makers, businesses and the 
public would benefit from more information about the types of 
work-family policies adopted in the private sector. We 
therefore recommend that the process include the collection and 
sharing of data about the use and uptake of leave and 
flexibility programs.
    I think that Ms. Evans made a really important point. It is 
not just that you offer the programs, but you have to know if 
workers are really able to use and access them.
    And there were also many other wonderful suggestions which 
we support that the panelists have offered and, Madam Chair, 
you raised.
    In conclusion, the National Partnership for Woman and 
Families commends and thanks the co-sponsors of this bill. We 
look forward to working with you on this and other legislation 
that will benefit working families.
    [The statement of Ms. Wu follows:]

            Prepared Statement of Portia Wu, Vice President,
              National Partnership for Women and Families

    Chairwoman Woolsey, Ranking Member McMorris Rodgers, Members of the 
Committee, thank you for inviting me here to testify on behalf of the 
National Partnership for Women and Families (``National Partnership''). 
I particularly want to thank Representative Woolsey. As the lead 
sponsor of the Balancing Act, the FIRST Act, and the Domestic Violence 
Leave Act, you have truly been a tireless and effective champion for 
working women and men.
    I am Portia Wu, Vice President at the National Partnership, a non-
profit, non-partisan advocacy group dedicated to promoting fairness in 
the workplace, access to quality health care, and policies that help 
individuals meet the dual demands of work and family. The National 
Partnership led the eight-year fight to pass the Family and Medical 
Leave Act and is a national leader in advocating for laws that help 
workers meet work-family demands. We are pleased to support the Work-
Life Balance Award of 2010 and urge the Committee and the House to 
consider it as soon as possible.
    This legislation comes at a critical time. Women now make up half 
of America's workforce, and their incomes are increasingly important to 
families' economic survival. At the same time, women continue to have 
primary responsibility for family caregiving. Today, four out of ten 
mothers are the primary breadwinners in their households and two-thirds 
of mothers contribute significantly to their families' income.\1\ 
Working men are also investing more time in child care.\2\ And many 
more Americans are assuming eldercare responsibilities\3\--a trend that 
will intensify as our country's population ages.
    But while our society has changed, our public policies have not 
kept up. Our single national work-family law, the Family and Medical 
Leave Act (FMLA), provides only unpaid leave.\4\ It has helped millions 
of workers over the last 17 years, but there are many challenges facing 
working families that the FMLA does not address. Millions of workers 
are not covered by the FMLA at all, and many of those who are cannot 
afford to take the unpaid leave the law provides.\5\ The United States 
is the only industrialized nation with no national policy to ensure 
that workers are financially able to take time off for day-to-day 
medical needs, serious illness\6\ or to care for a new child.
    The economic crisis of the past two years and the shrinking job 
market have intensified the problem. Already-vulnerable workers fear 
that they will risk their jobs and economic security by taking leave, 
asserting their rights and sometimes even by exploring their 
options.\7\ In this kind of climate, recognizing workplace policies 
that enable men and women to meet family and health needs without 
sacrificing their jobs and income is more important than ever.
    Strong work-family policies not only benefit workers and their 
families, they also benefit businesses. Such policies boost worker 
commitment, productivity, and morale, and employers reap the resulting 
benefits of lower turnover and training costs.\8\ And both employers 
and the public benefit from reduced spread of disease and lower health 
care costs when employees and their families can seek preventive care 
or attend to urgent medical conditions.\9\ With these benefits for 
businesses, families, our economy and public health, it is no wonder 
that the overwhelming majority of Americans support common-sense 
policies that help workers meet the dual demands of work and family.
    The National Partnership welcomes the opportunity to work with 
Congress and the Administration to address these urgent needs. That 
starts with a national dialogue about government policies that help 
workers meet these obligations.
    An important first step is recognizing employers that have already 
adopted family-friendly policies. We applaud the work that 
organizations like Working Mother Magazine have done to raise the 
profile of these issues by highlighting businesses that help employees 
honor their family commitments. And we believe that the national award 
proposed by this legislation would serve as a powerful additional 
incentive for companies to adopt strong work-family policies.
    While the bill leaves it up to a selected Board to determine the 
criteria used to confer these awards, we respectfully suggest some key 
requirements that should be met, so that the award recognizes true best 
practices that benefit employees and employers.
    First, the award process should recognize the importance of work-
family policies that provide paid sick days for workers to handle 
immediate medical needs and obtain preventive care for themselves and 
their families, as well as longer-term paid leave to address chronic 
and serious medical conditions. And because there are many family needs 
in addition to those related to healthcare, we recommend that the Board 
recognize the value of workplace policies that permit employees to 
structure flexible work arrangements. We also recommend that the scope 
of family members covered by these policies be drawn broadly to 
encompass the reality of modern families.
    In addition, it is critical that policies recognized by this award 
apply equally to all workers at a company. Finally, workers should be 
able to avail themselves of offered leave or flexible arrangements 
without being penalized or losing opportunities for promotion or higher 
wages.
    We also believe that policymakers, businesses and the public would 
benefit from broader and more detailed information about the scope and 
type of work-family policies being adopted in the private sector. We 
therefore recommend that the awards process involve the collection and 
dissemination of data about companies' work-family policies. This could 
include data about availability and uptake of work-family programs.
    We hope the Committee will consider these recommendations as it 
moves forward with this legislation.
    In conclusion, the National Partnership for Women and Families 
commends and thanks the cosponsors of this bill. We look forward to 
working with you on this and other legislation that will benefit 
working families.
                                endnotes
    \1\ Heather Boushey and Ann O'Leary, Our Working Nation (March 
2010) 1.
    \2\ Ellen Galinsky, Kerstin Aumann, James T. Bond, Times Are 
Changing: Gender and Generation at Work and at Home. (Families and Work 
Institute 2009) 14-17.
    \3\ Caregiving in the U.S. (National Alliance for Caregiving 2009) 
15.
    \4\ The FMLA provides leave for workers to address needs arising 
from a serious illness; the serious illness of a minor child, spouse, 
or parent; or to care for a new baby or newly adopted or foster child 
without fear of losing their jobs. The law was recently amended to 
allow the families of military members extended leave to care for an 
injured servicemember or veteran and to address qualifying exigencies 
arising out of the deployment of a family member.
    \5\ A survey commissioned by the U.S. Department of Labor found 
that 78 percent of employees who qualified for FMLA leave and needed to 
take it did not do so because they could not afford to go without a 
paycheck. Department of Labor 2000 Survey Report, www.dol.gov/whd/fmla/
toc.htm.
    \6\ Jody Heymann, et al, Center for Economic and Policy Research, 
Contagion Nation: A Comparison of Paid Sick Day Policies in 22 
Countries, May 2009, www.cepr.net/index.php/publications/reports/
contagion-nation:-acomparison-of-paid-sick-day-policies-in-22-
countries/.
    \7\ See Evercare/National Alliance of Caregivers, Survey of the 
Economic Downturn and its Impact on Family Caregiving, April 2009 
(workers report that the recession has caused them to be more concerned 
about taking time off to provided needed care for others) 
www.caregiving.org/data/EVC--Caregivers--Economy--Report%20FINAL--428-
09.pdf.
    \8\ See Christine Siegwarth Meyer, Work-Family Benefits: Which Ones 
Maximize Profits?, Journal of Managerial Issues, vol. 13, no. 1, Spring 
2001; Corporate Voices for Working Families, Innovative Workplace 
Flexibility Options for Hourly Workers, 2009 http://
www.cvworkingfamilies.org/system/files/CVWF%20report-FINAL.pdf.
    \9\ Jonathan Heller, Human Impact Partners, Health Impact 
Assessment of the Healthy Families Act, 2009, www.humanimpact.org/psd.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much, all four of you. 
Thank you for supporting our bill. I appreciate you very much.
    Ms. Wu, you started it, so I am going to go down the other 
three witnesses and ask each of you, starting with you, Ms. 
Evans, what do you think would be the most important criteria 
requirement that we would accept from an employer?
    Ms. Evans. Well, I believe that----
    Chairwoman Woolsey. You need to turn on your microphone.
    Ms. Evans. Thank you. I need instruction. I think that, you 
know, we measure eight clusters of information at Working 
Mother on our application, and I think it is important to have 
a broad enough spectrum of questions.
    However, this bill could really choose to focus on a 
narrower band of questions than what we do, as a possible idea, 
to highlight stuff that is very urgent, like paid maternity and 
paternity leave, flexible work arrangements and child care.
    I mean, I think those are the three key areas that are most 
in need of support so, you know, either--if you go very broad, 
like we do, that leads to the 700 questionnaire application. If 
you go narrow, you know, you could focus more public attention 
on the critical factors--flex, child care and paid leave.
    And paid leave, by the way, includes--of sick leave as well 
as----
    Chairwoman Woolsey. Sick leave.
    Ms. Evans [continuing]. Maternity leave and disability.
    Chairwoman Woolsey. Okay. Thank you very much.
    Ms. Lipnic?
    Ms. Lipnic. Chairwoman Woolsey, I think the first thing 
that I would look at is, one, the benchmark as what are the 
operational needs of the business, and then how are they able 
to provide flexibility in many ways to their employees.
    And that would particularly include do they have some kind 
of work-sharing arrangements, flexible work schedules, what are 
their arrangements for part-time workers.
    You know, particularly many women work part-time. They want 
to work part-time. That often becomes a benefits issue for 
women. So I would look at that. I would also certainly look at 
what kind of both short-term and long-term disability programs 
they might have.
    But because this award is really about staying in the 
workforce and being able to manage your personal life how--and 
whatever your caregiving needs are, or whatever your interests 
are at the same time, I think it has to be a lot about what the 
flexibility is, and certainly, you know, in compliance with all 
of the requirements under the Fair Labor Standards Act.
    But I think there are a lot of ways that employers can 
offer more flexible schedules. Some of that actually in terms 
of, like I said, part-time benefits or reduced schedules may 
result in lesser income for certain workers, but I think a lot 
of people in a lot of the surveys show that people, you know, 
are interested in being in the workforce and having that 
flexibility at the same time.
    Chairwoman Woolsey. Thank you.
    Ms. Gorman, I know flexibility is it. Name the other ones 
you believe would be important.
    Ms. Gorman. Turn the microphone on. SHRM believes that the 
flexibility part is critical, and--just as Ms. Lipnic was 
speaking.
    We also need to take into account different kinds of 
business, different sizes of businesses, public and private, 
different industries, because flexibility means different 
things in different organizational contexts, and so not just 
the level of the employee, but also the kind of work that is 
being done, the kind of industry and the kind of competitive 
benchmarks that are set with an industry.
    So we would encourage great flexibility as the--as the 
committee puts together the requirements for applying for the 
award going forward.
    Chairwoman Woolsey. Thank you.
    Ms. Wu, just because you get the last words here, tell us 
what you think these--what do these incentives do for 
employers? Why does it matter if we do something like this?
    Ms. Wu. I think an award, as many folks have already 
mentioned, provides a powerful incentive for employers, because 
it is not only in the process, I think, they not only look at 
what--the policies they have on the books, but they really look 
at what is happening in the workplace.
    A lot of companies may have good policies but it really is 
how they work on the ground that is going to make the 
difference for their employees.
    And I think, Madam Chair, to your point earlier about 
looking at a company more globally and looking at their other 
labor record, I think that is an important part of that 
equation, because the award is intended to reward companies 
that are making--providing a good environment for their 
workers, and if it is a very unsafe environment but it is very 
flexible, that doesn't meet anyone's goal.
    Chairwoman Woolsey. Right. We are not looking at having 
this be a Band-Aid for doing other things but looking good in 
the area of flexibility, so you are right about that.
    Now, we are very fortunate to be joined by the ranking 
member of the Workforce Protections Subcommittee.
    And, Cathy, I told them how important you were in writing 
this legislation. We are glad you are here. We would love to 
hear your opening remarks. And then if you would like to start 
questioning, or we will go--come back to you.
    Mrs. McMorris Rodgers. Okay.
    Chairwoman Woolsey. You decide.
    Mrs. McMorris Rodgers. Okay. Thank you, Madam Chairwoman. 
And I will go ahead and share my opening remarks, and then come 
back for questions later, if that is fine.
    And I apologize for being late. I was having one of those 
work-family responsibilities, challenges, myself this morning 
and I couldn't be here at 10 o'clock.
    But I want to thank the witnesses for appearing today. I 
appreciate the time that you have taken out of your busy 
schedules to share your testimony.
    And I would also like to thank the Chairwoman for her work 
on this bill and for having an open dialogue with the 
interested parties throughout the process.
    As the Chairwoman noted, H.R. 4855, the Work-Life Balance 
Award Act, would establish an annual award within the 
Department of Labor to recognize employers with exemplary work-
life balance policies.
    The bill would highlight the best practices by employers 
and encourage innovation in the adoption of work-life balance 
policies, which we hope will encourage other companies to adopt 
similar programs.
    While this bill had one stated goal, to recognize employers 
who are able to creatively meet the needs of their workers in 
achieving some measure of work-life balance, I hope that we can 
focus the discussion on ways to encourage employers to 
accommodate employee results for greater workplace flexibility 
without the use of government mandates that can raise the cost 
of employment and stifle creative arrangements.
    The issue of work-life balance continues to be of concern 
to the majority of employees. A growing number of employers are 
successfully meeting the demands and meeting the needs of their 
workers through policies designed to give greater flexibility 
in the workplace. Most employers understand that having 
programs in place to address work-life balance issues is 
effective and necessary.
    Without a doubt, job security remains the biggest concern 
for many employees in today's struggling economy. Each day 
there are stories about employers who have been forced to scale 
back because of economic conditions, including letting 
employees go. Given these difficult circumstances, there is no 
question that mandating new labor costs on employers would only 
exasperate the situation.
    Ultimately, policies that increase labor costs for 
employers will have the effect of destroying jobs or limiting 
opportunities for workers.
    I know as a new mom myself that one of the biggest 
struggles working parents face is how to balance work and 
family responsibilities. Employees are looking for flexibility 
to get the job done, while also being able to make the school 
play, stay at home with a sick child, or care for an elderly 
parent. Employers are looking to stay in business. 
Consequently, we must carefully balance the costs and benefits 
for both employers and employees alike.
    To that end, I have introduced legislation, the Family-
Friendly Workplace Act, H.R. 933, which will remove a barrier 
in current law that prevents employers from meeting employee 
demands for increased workplace flexibility.
    It would allow private sector employers to give their 
employees the option to voluntarily choose paid time off, known 
as comp time, in lieu of overtime pay. This is something that 
by most accounts has been successful and popular with public 
sector employees for over 25 years.
    So, as we look for ways to help employers provide greater 
work-life balance and recognize their efforts, we must also do 
so within the context of today's fragile economy and consider 
options that won't impede employers' efforts to create lasting 
jobs and strengthen the economic future of our country.
    Again, I thank our witnesses and thank the Chairwoman and 
look forward to asking some questions.
    [The statement of Mrs. McMorris Rodgers follows:]

  Prepared Statement of Hon. Cathy McMorris Rodgers, Ranking Minority 
             Member, Subcommittee on Workforce Protections

    Thank you, Madame Chairwoman.
    I too would like to thank our witnesses for appearing today. We 
appreciate that you have taken the time out of your busy schedules to 
testify this morning. I would also like to thank the Chairwoman for 
working to craft this bill in a bipartisan manner, and for having an 
open dialogue with interested parties throughout this process.
    As the Chairwoman noted, H.R. 4855, the Work-Life Balance Award 
Act, would establish an annual award within the Department of Labor to 
recognize employers with exemplary work-life balance policies. The bill 
would highlight best practices by employers and encourage innovation in 
the adoption of work-life balance policies, which we hope will 
encourage other companies to adopt similar programs.
    While the bill has but one stated goal--to recognize employers who 
are able to creatively meet the needs of their workers in achieving 
some measure of work-life balance--I hope that we can focus the 
discussion on ways to encourage employers to accommodate employee 
requests for greater workplace flexibility, without the use of 
government mandates that can raise the cost of employment and stifle 
creative arrangements.
    The issue of work-life balance continues to be of concern to a 
majority of workers. Indeed, a growing number of employers are 
successfully meeting the demands and needs of their workers through 
policies designed to provide greater flexibility in the workplace. Most 
employers understand that having programs in place to address work-life 
balance issues are effective and necessary.
    Without a doubt, job security remains the biggest concern for many 
workers in today's struggling economy. Each day, there are stories 
about employers who have been forced to scale back because of economic 
conditions and let employees go as a result. Given these difficult 
circumstances, there is no question that mandating new labor costs on 
employers will only exacerbate the situation. Ultimately, policies that 
increase labor costs for employers will have the effect of destroying 
jobs or limiting opportunities for workers.
    I know, as a new mom myself, that one of the biggest struggles 
working parents face is how to balance work and family 
responsibilities. Employees are looking for flexibility to get the job 
done, while also being able to make the school play, stay at home with 
a sick child, or care for an elderly parent. Employers are looking to 
stay in business. Consequently, we must carefully balance the costs and 
benefits for both employers and employees alike.
    To that end, I've introduced a bill, H.R. 933, the ``Family-
Friendly Workplace Act,'' which will remove a barrier in current law 
that prevents employers from meeting employee demands for increased 
workplace flexibility. The ``Family-Friendly Workplace Act'' would 
allow private sector employers to give their employees the option to 
voluntarily choose paid compensatory time off (known as ``comp time'') 
in lieu of overtime pay. This is something that, by most accounts, has 
been successful and immensely popular with public sector employees for 
25 years.
    So as we look at ways to help employers provide greater work-life 
balance and recognize their efforts, we must do so within the context 
of today's fragile economy, and consider options that won't impede 
employers' efforts to create lasting jobs and strengthen the economic 
future of our country.
    Again, I welcome our witnesses, and look forward to your 
testimonies. Thank you Madam Chairwoman.
                                 ______
                                 
    Chairwoman Woolsey. We will be back to you.
    Congressman Sablan?
    Mr. Sablan. Thank you. Thank you, Madam Chairman.
    I grew up in a family of six sisters and a mother and moved 
into a family of my own of five daughters and a wife, and I am 
not surprised that we have asked women to join us this morning 
to tell us how you do it.
    But many of the jobs that have been lost during the--this 
recession have been held by men, and are you seeing more of men 
moving into caretaker roles? And are you seeing employers 
accommodate the--this as they go back to work?
    I agree with some of the comments that we need to expand 
the paid leave and the flex, and--but are you seeing some of 
these caretaker roles move into the--men taking over this role 
rather than women? Anyone could answer.
    Ms. Evans. About 8 percent of men are stay-at-home dads, 
and so at least 8 percent of dads are staying home to take care 
of their children, and so it is a small group, but it is 
growing. And as women out-earn their husbands, men have more 
career options to pull back on their careers to take care of 
children on a part-time basis, even.
    Also, women tend to marry men who are older than them in 
many cases, and so those men are retiring earlier and helping 
their families with teenaged children, which becomes a very 
critical point of caregiving. When your children are big, they 
create big problems. Little kids, little problems.
    So there is a lot of--there is also a lot more co-parenting 
going on, which is something that we highly commend. But the 
bigger point, I think, about men is not so much on whether men 
are caregiving, because it is still falling primarily on women. 
Caregiving for children and also elder care, which is a big 
factor in this as well, but one thing that is very important to 
recognize is that men are beneficiaries of the work-family 
benefits that companies offer and that this award might 
celebrate.
    We find that there has been a huge increase in paternity 
leave options that companies are adopting for their employees 
because fathers are really benefitting and appreciating 
paternity leave time with their--with their young children.
    But also, men and non-mothers, women who are childless--
everyone benefits by the flexible work arrangements so that 
they can do--follow pursuits like running in a marathon, 
training for a marathon, or going on a trip back to a country 
where their--where their family is from for an extended time.
    Everybody benefits from high-quality childcare that 
companies provide, men and women. Men and women benefit equally 
from the type of programs that we encourage through our best 
companies. And so I think--and if you just look at, for 
example, flexibility, that is something that is for--utilized 
so much by everybody. A dad wants to see the school play just 
as much as the mom.
    So it is not just a matter of dads getting more involved in 
the home. It is a matter that everybody in the companies 
benefit from these--all of the benefits that are work-life-
related.
    Mr. Sablan. Yes. Actually, I come from a district where we 
are just beginning to catch up, thanks to the good work of your 
organization, SHRM. And you know, people are--employers are 
just beginning to catch up. Some of the businesses are family-
owned.
    Actually, now I am--I am just about convinced that my wife 
has agreed to let my son go to school in Baltimore when my 
daughter is moving here, because I think she wants me to know 
how difficult it is to raise kids, so she is back 8,000 miles 
away and she is leaving this responsibility to me.
    But thank you all for your comments.
    And, Madam Chairwoman, thank you for your leadership on 
this resolution.
    Chairwoman Woolsey. Thank you, Mr. Sablan.
    We are going to come back to the ranking member after 
Congressman Hare.
    Mr. Hare. Thank you, Madam Chair, and thanks for having the 
hearing, and I apologize for being late. I was at another 
meeting. But I really am a strong supporter of this bill, and I 
appreciate you all coming here this morning.
    You know, I believe that it is a benefit--this bill will 
show that the government values, you know, family-friendly 
responsible employers. But I would like to ask the panel from 
your perspective, what additional, if anything, could be added 
to strengthen this bill, from your perspective?
    Ms. Lipnic. Congressman Hare, I had a number of things in 
my written statement about some drafting issues. I think one 
thing is to probably lay out a little bit more in the bill 
exactly what the criteria would be for, you know, achieving the 
satisfactory work-life balance and how the--and at least, if 
there are some findings or something along those lines--and as 
I mentioned, there is a--there is a very well developed body of 
research in this area.
    A number of awards--Ms. Evans' magazine--the Sloan Awards 
have years' worth of research in benchmarking how companies 
have achieved flexibility. And I think there is a lot to draw 
upon that, if added at least to findings in the bill, would 
probably give better direction, I think, and more specific 
criteria to the Department of Labor as it would go forward and 
administer it.
    Mr. Hare. Ms. Gorman?
    Ms. Gorman. We would encourage you to look at the success 
of existing programs already, as Carol talked about, the 
Working Mother award--and there are a number of them. The 
Malcolm Baldrige award is an--is an extraordinary example of 
the government setting benchmarks that, as Ms. Wu said, 
actually impel organizations to move forward.
    And it becomes really a competitive issue as it looks to 
building--to retaining the workforce it has and building the 
workforce of the future by creating an environment that is 
innovative, that is flexible, that allows an organization to 
keep their employees motivated, engaged, and bringing their 
best to work every day.
    These kinds of awards, as we said, shine a spotlight on 
exemplary practices. And by keeping the criteria broad enough 
to allow for that local innovation, that local experimentation 
that is really working in one--in one arena that might not work 
in another--we want to make sure that we are not, you know, 
also mandating innovation and defining innovation in a way that 
actually shuts it down and doesn't let that sort of on-the-
ground--what works for us, within--as Ms. Lipnic said, within 
the confines of existing legislation, regulations and laws.
    Let people experiment and then be rewarded for those kinds 
of experimentation. So from our perspective, it is about 
shining a spotlight on these kinds of practices that allow 
businesses to really be more and more successful both in their 
business and grow their business, grow job creation, but also 
in the retention and the development of their existing employee 
population.
    Mr. Hare. Ms. Wu?
    Ms. Wu. I agree with what the others have said in terms of 
laying out criteria. I think that is helpful, and we have 
enumerated a few. I wanted to focus on a few things.
    While I understand the need to acknowledge the different 
kinds of innovation that businesses have pursued, I think we 
also have to have some minimum baseline benchmarks that people 
should have to meet.
    I mean, people shouldn't be fired for needing to go take 
care of their own medical needs or a family member's medical 
needs.
    And I think one thing--I mentioned the importance of 
fairness. I do think a focus on low-wage workers is really 
important. I mean, looking at the data and what companies are 
doing already, a lot of higher skilled and higher wage workers 
already have these policies available to them.
    But the person who works on the shop floor has a family and 
has health care needs just as--the same as the person in the 
executive office suite, and there are a lot of companies who 
are doing wonderful things to try to reach those populations 
and be sure they have access to the same kinds of policies that 
really benefit them. And I think that needs to be recognized 
and focused on.
    Mr. Hare. Thank you. Thank you.
    Oh, I am sorry. Ms. Evans?
    Ms. Evans. Yes, Congressman Hare, I would like to mention 
that I suggested in my written testimony that I think a very 
important vital tweak to this bill would be to create a public-
private partnership on managing and creating this award.
    There are several organizations like Working Mother 
magazine and the Families and Work Institute that have 
especially, you know, put in an enormous amount of work and 
financially supported these awards programs. It is very 
important that the Congress consider not to impede or hurt or 
compete with those awards so that we are all doing double work.
    And also, it is a lot of the foundation of the work that 
Families and Work Institute and Working Mother gets our work 
accomplished through these award programs. So, I am asking to 
make sure that we look at the impact on private business for 
that, as well as the opportunity to take--not to learn from our 
awards but to actually take the work that we have done and 
utilize it as part of the award process.
    I also want to mention that there is a huge difference in 
this country between companies that are doing something for 
the--for working mothers and fathers and companies who aren't. 
You know, for example, one fact, so vital--100 percent of our 
100 best companies offer flexible work arrangements, but only 
57 percent of all companies in this country offer that.
    People assume that all companies offer this, and that is 
just not true. So there--so the work to be done to tease out 
those who deserve and don't deserve this award is extremely 
important.
    Mr. Hare. Thank you all.
    Chairwoman Woolsey. Ms. McMorris Rodgers?
    Mrs. McMorris Rodgers. Thank you, Madam Chairwoman.
    I wanted to ask Ms. Lipnic about the EVE Award currently 
awarded--given by the Department of Labor and just wanted to 
ask you to talk about if there was a good participation rate by 
the organizations and if you believe that the prestige 
associated with the awards really motivates organizations to 
undertake the time and effort required by the application 
process.
    Ms. Lipnic. Sure. And as I mentioned earlier, the EVE 
Awards, which are given by the Office of Federal Contract 
Compliance Programs at the Department of Labor, which 
administers the affirmative action and equal employment 
opportunity for federal contractors--so if you are a federal 
contractor, you have to meet those requirements, have an 
affirmative action plan.
    And the Secretary's Exemplary Voluntary Efforts Award was 
established at the Department of Labor back in the 1980s. It 
has been very successful in the affirmative action, equal 
employment opportunity world. And my experience at the Labor 
Department--if you are a federal contractor and you are subject 
to jurisdiction of OFCCP, the district offices of OFCCP will 
often seek out companies to apply for the award.
    It is a very extensive application. You have essentially 
got to go through an OFCCP audit and, you know, most companies 
don't want to have the federal government auditing them. But 
these are companies who will voluntarily do it in trying to get 
the award. And it goes to both companies--also, nonprofit 
organizations.
    And there is tremendous prestige associated with it. Before 
I left private practice 2 days ago, my law firm would encourage 
employers and clients to, as part of our affirmative action 
practice, apply for the award, one, because of the prestige 
associated with it; two, because it actually helps the 
companies meet their compliance requirements but also go beyond 
that, and--which is really what you have to do to get the 
award.
    I think there is tremendous prestige associated with 
getting an award from a cabinet secretary. I saw it. I presided 
over the ceremony every year. And I, in private practice, had 
many clients come to me and say, ``Oh, by the way, you know, we 
won the EVE Award 15 years ago,'' and they are still proud of 
it, so----
    Mrs. McMorris Rodgers. Right.
    Ms. Lipnic [continuing]. I think it has a--it has a great 
impact on organizations.
    Mrs. McMorris Rodgers. Thanks. And you mentioned that you 
thought the--that the award should be housed with a specific 
agency at the Department of Labor but not in the Office of the 
Secretary. And I understand the importance of placing the award 
in an area that would have the institutional experience and 
expertise.
    I do wonder about it being housed at the Women's Bureau, if 
it somehow gives the impression that the award is more relevant 
to women when I think it is broader----
    Ms. Lipnic. Right, and I would agree with that, and I 
suggest that only as sort of knowing the structure of the 
Department of Labor and sort of wondering, ``Well, where would 
the best place for it be?''
    The Secretary's staff at the Labor Department, regardless 
of administration, is largely political appointees, and so, you 
know, you want a place that will develop the institutional 
knowledge and criteria.
    You know, everywhere else at the Department of Labor, 
unless you are in the Employment and Training Administration--
and I suppose that could be somewhere for it--is an enforcement 
agency. And so, you know, I think you have to sort of balance 
is the Women's Bureau the right place versus the--well, do you 
want the enforcement agencies to be doing this.
    And this is a voluntary award, and you are not--you know, 
there is not a policy that you are trying to enforce, and 
actually, in contract to even the OFCCP EVE Awards, which does 
have an enforcement arm. So you know, there may be a better 
place. I am not sure where it would be. But I certainly 
understand that concern.
    And that is probably, you know, something that--the Women's 
Bureau does a lot of research, and that is--the concern about 
would it just give that impression, I think, is maybe something 
that could be overcome in findings in the bill or direction 
that Congress would give to the agency.
    Mrs. McMorris Rodgers. Okay.
    Ms. Gorman, the Chairwoman has asked that I would ask you 
where you would put it.
    I also wanted to ask you, because I understand you 
mentioned comp time as one of the options that should be a 
federal policy, and I assume that the Society for Human 
Resource Management has both public and private sector members, 
and I just waned to ask you to comment if you see any reason 
why this should be treated differently.
    Ms. Gorman. We do have both public and private members, and 
we wouldn't--we have been public in our support for evening the 
playing--evening the playing field, and I think we have a lot 
of experience behind us in the public sector that shows what 
works and doesn't work in this regard, and it would seem a 
matter of fairness to enable employers in the private sector to 
be able to offer this benefit to their workers as well.
    And again, it has to be the conversation between the 
employees and the employers. Some employers may choose to offer 
the comp time opportunity and others may not. They may have 
other kinds of benefits that address that need. But again, 
employees don't--even if offered, employees may not choose to 
take the comp time.
    It becomes still the--what works in this organization, what 
is going to make us successful, what is going to make our 
employees' flexibility needs handled in a more--in a more 
appropriate way.
    Mrs. McMorris Rodgers. And do you have--do you have a 
recommendation on where this award should be housed?
    Ms. Gorman. Oh, yes. Thank you. I think we would support 
Ms. Lipnic's suggestion to her--her knowledge of the inner 
workings of the Labor Department are quite extensive, and so we 
would--we would support her recommendation as well.
    And while I am here, I just would like to thank you for the 
wonderful work that you have done, Congresswoman, on this--on 
this issue and many others. We are very appreciative of the 
bipartisan nature of the work that has been done, particularly 
on this act and our--as I said, our total support, so thank 
you.
    Mrs. McMorris Rodgers. Thank you.
    Chairwoman Woolsey. So we are so lucky. We were supposed to 
have votes at 10:30. We have escaped that pressure. So I think 
it would be better if we just get on with closing our--the 
hearing.
    And so without objection, I would like to place the 
following letters into the record: a letter from Families and 
Work Institute, a letter from the Alfred P. Sloan Foundation, a 
statement from World at Work.
    [The information follows:]

            Prepared Statement of Ellen Galinsky, President,
                      Families and Work Institute

    Chairwoman Woolsey, Ranking Member Rodgers and members of the 
Workforce Protections Subcommittee, thank you for this opportunity to 
provide written testimony with regards to The Work-Life Balance Award 
Act.
    As president and co-founder of Families and Work Institute (FWI), a 
nonprofit, nonpartisan research center on the changing workplace, 
changing family and changing community, I am pleased by your focus on 
work-life and by your determination to elevate these issues--which are 
so important to millions of America's working families--from private, 
personal struggles into the national dialogue and to foster positive 
change in our nation's workplaces.
    While I fully support the intention behind creating an annual Work-
Life Balance Award, we have learned a great deal about what makes 
awards work and it is complex, time consuming, and labor-intensive. We 
ask that you consider these issues. Ultimately, we urge that Congress 
enact an initiative that supports what those in the private and 
nonprofit sector have been doing for years, rather than competes with 
or dilutes these efforts.
    1. There are a number of other well-established and highly regarded 
employer awards that have been created by the private and the nonprofit 
sectors.
    These include Working Mothers Best 100 Companies for Working 
Mothers and the Families and Work Institute's Alfred P. Sloan Awards 
for Business Excellence in Workplace Flexibility.
    Since my organization, the Families and Work Institute--in 
conjunction with the Institute for a Competitive Workplace, an 
affiliate of the U.S. Chamber of Commerce, and the Twiga Foundation--
have been responsible for the creation and implementation of the Sloan 
Awards with the essential support of the Alfred P. Sloan Foundation, I 
will speak from this vantage point.
    The Sloan Awards are now in their sixth year. Over this time, we 
have developed a rigorous and systematic process by which employers of 
all sizes and kinds from around the country are recognized for their 
practices for creating effective and flexible workplaces that mutually 
benefit both employers and employees. FWI has significant insights into 
small and medium size employers, including their resources and 
commitment to apply for recognition.
    With the greatest respect, we ask that you please consider the 
tremendous financial and intellectual investment that have gone into 
the development and expansion of the Sloan Awards, and how our efforts 
might complement and support each other in order to reach our common 
goal: increasing exemplary workplace practices across the nation that 
are designed to help employees achieve a satisfactory work-life fit.
    2. For the employer community to respect awards, they must provide 
quality assurance, based on a rigorous process.
    The Sloan Awards were developed with input from leading scholars, 
business consortiums and employers. Because it was our intent to reach 
small and mid-sized as well as large employers from all sectors--
public, private sectors, for-profit and not-for-profit--we decided to 
make these awards worksite based. Worksite based awards allow 
organizations to be evaluated on their programs and policies as well as 
their organizational culture--on what really happens ``on the ground'' 
and not just ``on paper.''
    Any employer is eligible to apply for the Sloan Awards provided 
they have been in operation for at least one year and have at least 10 
employees who work from or report to the applying worksite. The 
employers can reapply every year, whether or not they win.
    The application process takes place in two rounds. In Round I, 
employers self-nominate by completing a questionnaire that asks about 
their worksite's flexibility practices and policies and the 
supportiveness of its work culture. Responses to the employer 
questionnaire are then measured against national norms that have been 
derived from the Families and Work Institute's ongoing nationally 
representative study, the National Study of Employers. To qualify for 
Round II, employers must rank in the top 20% of employers nationally.
    Round II of the application process involves surveying employees 
about their access to and use of flexibility; the aspects of the 
workplace culture that support their ability to work flexibly; and 
whether or not they experience ``jeopardy'' when working flexibly. 
These items are also normed against the Families and Work Institute's 
ongoing nationally representative study of employees the National Study 
of the Changing Workforce.
    In organizations with fewer than 250 employees, all employees are 
surveyed. In larger organizations, a sample of 250 employees is 
selected and surveyed. Of those surveyed, a minimum of a 40% response 
rate is required (though the response rate exceeds this, with an 
average 52% response rate).
    On the basis of the employer and employee questionnaires, an 
overall score is computed, with two-thirds based on employees' 
responses. There is no minimum or maximum number of award recipients.
    Thus, these awards are very respected because they are based on 
national norms of employees and employers and because two-thirds of the 
winning scores come from employees. This provides quality assurance, 
which is absolutely necessary when dealing with small and mid-sized 
employers.
    3. Work life assistance is not sufficient in and of itself to 
assure that employees have a good work life fit.
    Data from FWI's nationally representative study of the U.S. 
workforce reveals that flexibility is a major aspect of a larger 
construct of work life fit (which also includes whether the supervisor 
cares about the effect of work on the employees' personal/family life, 
whether the supervisor is responsive when the employees have personal/
family business, and whether one's coworkers are supportive to the 
employees' efforts to successfully manage their work and family life).
    In addition, our data reveal that work life fit includes but goes 
beyond programs and policies. And that makes sense--if an employees has 
access to flexibility or child care support but works in a place where 
he or she is given little respect, has few if any learning 
opportunities, or has a difficult supervisor, the work life assistance 
will not yield its intended goal.
    Over the past six years, Families and Work Institute has engaged in 
a research journey to define the specific elements that make up 
effective workplaces. Based on our 2008 National Study of the Changing 
Workforce data, we have identified six criteria of effective workplaces 
that benefit both the employee and the organization. These are:
    1. Job Challenge and Learning
    2. Climate of Respect
    3. Autonomy
    4. Work-Life Fit
    5. Economic Security
    6. Supervisor Task Support
    We have examined the empirical relationships among these six 
workplace effectiveness factors, an index of overall effectiveness 
based on a combination of all six criteria, and work and health and 
well-being outcomes.
    We found that greater overall workplace effectiveness is strongly 
related to greater engagement, higher job satisfaction and a desire to 
stay with the organization, higher employee health and well-being and 
less spillover from work to home.
    Thus, the Sloan Awards measure these factors in the employee 
survey. These assure that the award is being given to employers that 
provide both an effective and flexible workplace.
    In addition, the Sloan Awards add critical topical issues every 
year. Last year, during the height of the recession, we added questions 
about how employers were handling the recession. This assured us that 
we were not giving the award to any employer that was using flexibility 
in a way of cost cutting that had negative repercussions on employees. 
This year, as the economy is rebounding, we have added questions on how 
employers are helping employees improve their own effectiveness by 
participating in skills-based or degree-or certificate-granting 
educational programs.
    4. Providing awards does not guarantee an increase in applicants 
without an infrastructure to promote applications.
    Over the five years we have given out the Sloan Awards, there has 
been a tremendous increase in the number of applicants and winners:
    <bullet> In 2005, there were 103 applicants and 33 winners.
    <bullet> In 2006, there were 247 applicants and 89 winners.
    <bullet> In 2007, there were 321 applicants and 129 winners.
    <bullet> In 2008, there were 517 applicants and 259 winners.
    <bullet> In 2009, there were 909 applicants and 449 winners.
    The Sloan Awards truly reach small and mid-sized employers, as the 
following table reveals. (Percentages are read left to right. 
Percentages may not total 100 due to rounding errors.)
    The Sloan Awards were designed to create a grassroots movement to 
create workplaces that work for employers and employees (thus our name: 
When Work Works). We have done a great deal of outreach and partnership 
development in order to educate businesses and communities about 
flexible and effective workplaces. The increase in the number of 
applications takes a great deal of effort.
    When Work Works and the Sloan Awards began in eight communities in 
2005. Today, we are embedded in 27 communities around the country, 
including five states:
    Arizona (statewide); Aurora, CO; Bay Area, CA; Boise, ID; 
Charleston, SC; Chicago, IL; Dallas, TX; Dayton, OH; Durham, NC; 
Georgia (statewide); Houston, TX; Kentucky (statewide); Long Beach, CA; 
Long Island, NY; Louisville, KY; Michigan (statewide); Milwaukee, WI; 
Morris County, NJ; New Hampshire (statewide); Providence, RI; Richmond, 
VA; Rochester, MN; Salt Lake City, UT; Seattle, WA; Spokane, WA; Twin 
Cities + St. Cloud, MN; and Winona, MN.
    In addition, we have an at-large award.
    With each of our community partners, we require that they bring 
together a leadership group that includes the ``movers and shakers'' 
(from the public and private sectors as well as the media) to oversee 
the project and ensure that it truly meets local needs. They are 
responsible for providing education, doing extensive media outreach, 
and promoting the awards. Thus, the increase in awards has been a 
function of this grassroots movement we have created all over the 
country, now representing 30% of the population.
    It is our strong experience that simply having an award--even an 
award as prestigious as one that has the Sloan Foundation, the Chamber 
of Commerce, the Twiga Foundation, and the Families and Work 
Institute's imprimatur on them--takes local support and media coverage 
to generate applicants from small and mid-sized employers.
    5. Providing awards only leads to improved workplaces with 
technical assistance and support.
    We have carefully monitored the impact of providing an award over 
our six years and have found that increase in work life assistance 
comes only from repeat applicants. For example, we have found the 
following improvements:
    Among repeat applicants:
    <bullet> Periodic flex time
    <bullet> Daily flex time
    <bullet> Moving between full and part-time positions
    <bullet> Compressed workweeks
    <bullet> Work from home occasionally
    <bullet> Control over shifts Among repeat winners:
    <bullet> Periodic flex time
    <bullet> Compressed workweeks
    <bullet> Work from home occasionally
    <bullet> Control over shifts
    The applicants and winners attribute these changes to the technical 
assistance they receive from their local community and from the 
national partners, to the Guide to Bold New Ideas for Making Work Work 
(the guide book that contains write ups of all of the winners), and the 
customized benchmarking report that each applicant and winner receives. 
These resources provide information and education that allow employers 
to strategically make changes that result in better outcomes for 
employees and the organization. And they do use our materials this way. 
The following CEO statement is typical of what we hear again and again:

          We offered a pretty flexible work environment when we 
        initially applied for the award. And we were very happy to win, 
        but the Customized Benchmarking Report was terrific because we 
        found out that there were a number of areas that we hadn't even 
        thought about. Then we got the Guide to Bold New Ideas, and 
        that was even better, because it highlighted specific 
        initiatives by different companies, some of which are our sized 
        companies, and some of which are very creative. So I personally 
        looked through all of that book and [established] a Policy 
        Review Committee. Last year, we initiated or improved a number 
        of policies--sabbaticals, leaves of absence, compressed 
        workweek, earlier start times, adoption assistance, 
        volunteerism--a whole range of things that make sense that we 
        hadn't ever really thought of before.
                        John C. Parry Jr., President & CEO,
                         Solix Inc.--Three-time Sloan Award Winner.
In conclusion
    The Sloan Awards are one of the few awards programs that: is 
evidence-based, drawing on information about effective and flexible 
workplaces from FWI's National Study of the Changing Workforce (NSCW); 
uses national benchmarks for measuring and evaluating employer 
practices from FWI's National Study of Employers (NSE); has a rigorous 
scoring process that emphasizes employee experiences; and provides a 
model of continuous improvement through its comprehensive Benchmarking 
Reports and annual Guide to Bold New Ideas culled from winners' 
practices.
    We urge Congress to consider the tremendous financial and 
intellectual investment that have gone into the development and 
expansion of the Sloan Awards and other awards. If you do move forward, 
we urge you to consider the lessons we have learned and to create an 
initiative that complements rather than competes with and dilutes what 
we have accomplished.
    Thank you for your attention to this important issue and for your 
commitment to work life issues for all Americans.
                                 ______
                                 

             Prepared Statement of Kathleen E. Christensen,
                       Alfred P. Sloan Foundation

    Dear Chairman Miller and Woolsey: The Alfred P. Sloan Foundation is 
very proud to have invested millions of dollars in the establishment 
and support of the Alfred P. Sloan Awards for Business Excellence in 
Workplace Flexibility. We want the Committee to be aware of this highly 
successful and effective awards program.
    The Sloan Awards program was established and is administered by the 
Families and Work Institute of New York City, under the leadership of 
Ellen Galinsky. This awards program has been in existence for five 
years, is now in 27 communities, including 5 states, around the U.S.A. 
and has recognized 1000 companies with these awards. It is a highly 
successful awards program.
    Through the standards set by the Families and Work Institute, this 
Sloan Awards program is a great model. It successfully builds awareness 
within the business and larger community of the kinds of workplaces 
needed by today's employees who are balancing work and family 
responsibilities and by employers looking for the strategic advantage 
in attracting and retaining the strongest workforces. Its emphasis on 
best practices further advances the voluntary adoption of workplace 
flexibility by businesses. And it is a model for how an awards program 
can successfully be used for data collection purposes in order to 
benchmark all applying companies and to track changes within business 
practices over time.
    It would be unfortunate for a new awards program to proceed without 
first carefully examining what has made Families and Work Institute's 
awards program so successful. Please contact me with any questions.
                                 ______
                                 

             Selected Bibliography of WorldatWork Resources

    WorldatWork is dedicated to providing education and information to 
help HR, Compensation, Benefits and Work-life practitioners 
successfully design reward programs to attract, motivate and retain the 
workforce. As such, this is not a comprehensive list of the resources 
WorldatWork has to offer. Please contact us for any other information 
you may need.
Education and lifelong training opportunities
            Articles
    <bullet> Refocusing Total Rewards when the Economy is a Blur 
(workspan, Jan 2009)
            Miscellaneous
    <bullet> Total Rewards Model/Checklist
Improving work and family balance
            Books
    <bullet> Workplace Flexibility: Innovation in Action (book, 2008)
    <bullet> Telework: A Critical Component of Your Total Rewards 
Strategy (book, 2007)
    <bullet> Paid Time Off Banks: Program Design and Implementation 
(book, 2007)
    <bullet> Paying & Managing Absences: How-to Series for the HR 
Professional (book, 2006)
            Surveys
    <bullet> Telework Trendlines 2009 (survey, 2009)
    <bullet> Employer Provided Connectivity Devices Survey (survey, 
2009)
    <bullet> Paid Time Off and PTO Banks (survey, 2006)
    <bullet> Flexible Work Schedules 2005 (survey, 2005)
            Articles
    <bullet> Unveiling Gendered Assumptions in the Organizational 
Implementation of Work-Life Policies (journal, Q1 2009)
    <bullet> Total Flex: At the Center of Total Rewards (workspan, Oct. 
2008)
            Courses and Online Learning
    <bullet> Flexible Work Arrangements: Helping Managers Achieve 
Results (course)
    <bullet> Shifting Attitudes and Changing Roles in Today's 
Employees--Understanding Its Impact on Total Rewards (webinar, 
available after April 29, 2009)
    <bullet> Flexible Workers--Five Tips to Manage What You Can't See 
(webinar)
    <bullet> Are Paid Time Off Banks Right for Your Organization? 
(webinar)
            Miscellaneous
    <bullet> AWLP Seven Categories of Work-Life Effectiveness Brochure
    <bullet> Total Rewards Model/Checklist
    <bullet> AWLP Work-Life Self Audit
    <bullet> National Work and Family Month Resolution (2008)
Compensation
            Articles
    <bullet> Money Talks: Identifying, Preventing and Alleviating 
Systemic Salary Compression Issues (workspan, Nov 2008)
    <bullet> The Living-Wage Ordinance Controversy (journal, Q1 2009)
    <bullet> Factors Affecting the Long-Term Success of Skill-Based Pay 
(journal, Q1 2008)
            Surveys
    <bullet> Reward Programs: What Works and What Needs to be Improved 
(survey, 2007)
Benefits
            Books
    <bullet> Providing Financial Education & Advice: A How-to Guide for 
the HR Professional (book, 2008)
            Articles
    <bullet> Refocusing Total Rewards when the Economy is a Blur 
(workspan, Jan 2009)
    <bullet> Issues and Strategies to Employ and Retain Senior Workers 
in the United States (journal, Q3 2008)
    <bullet> Why Your Company Should Consider a Phased Retirement 
Program? (workspan, Dec 2008)
    <bullet> Understanding and Designing Health-Care Incentive Programs 
(workspan, Dec 2008)
    <bullet> The University of Miami takes Retirement Advice Beyond the 
Traditional (workspan, Oct 2008)
    <bullet> A Legacy of Savings: Increasing Participation in 
Retirement Planning (workspan, June 2008)
    <bullet> Forget Cost-Shifting, Try Giving Back to Decrease Health-
Care Costs (workspan, June 2008)
    <bullet> Collaborating' on an Approach to Reduce Health-Care Costs 
(workspan, May 2008)
            Surveys
    <bullet> Trends in 401(k) Plans (survey, 2009)
            Courses and Online Learning
    <bullet> Financial Education & Advice--A Must-Have in the Workplace 
(webinar, 2009)
                                 ______
                                 
    Chairwoman Woolsey. So would you like to do your closing 
remarks, or do you want me to go and then you go?
    Mrs. McMorris Rodgers. I would just thank the witnesses 
once again for coming and appreciate your leadership on this 
issue, both this bill and look forward to working with you on 
other issues related to promoting flexibility and a better 
relationship between employers and employees when it comes to 
that, finding the balance between work and family issues.
    Chairwoman Woolsey. Which you just lived through, my 
friend.
    Thank you all for attending this legislative hearing on 
H.R. 4855, the work-Life Balance Award Act. As you have 
testified, you have been wonderful. It is important to 
establish an award at the Department of Labor to recognize 
employers with exemplary work-life practices.
    Workers, we know, desperately need work-life balance, and 
this is one way to encourage employers to do what they can and 
to focus a light on the issue, so that more employers will work 
to help their workers bridge the demands of work and family.
    I appreciate all of the suggestions that have been made, 
and you have made good ones. You know you have made good ones. 
But we have heard them. Let's put it that way.
    And I am looking forward through your suggestions to 
strengthening this bill as we proceed through the committee and 
on the floor for a vote, because we don't want a bill in name 
only that says something that is not going to be useful. I 
mean, I have a feeling we can get this through.
    So therefore, we want it to mean something and be 
something, so--not that we do things that aren't meaningful, 
but you know what I am saying. This is not grandstanding. So 
thank you all for coming.
    And thank you, Congresswoman McMorris Rodgers, for being a 
partner in this. Thank you very much.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with majority staff within 14 days.
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
